APPENDIX

la

APPENDIX A
THE UNITED STATES COURT OF APPEALS FOR
THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-5060
Sara Discepolo,
Appellant,
v.
United States Department of Justice
Appellee.
Appeal from the United States District Court for the
District of Columbia in No. 16-CV-02351.
Opinion
October 30, 2019
Sara Discepolo, Plaintiff - Appellant, Pro se,
Jacksonville, FL.
For United States Department of Justice, Defendant
- Appellee: Marsha Wellknown Yee, Assistant U.S.
Attorney, R. Craig Lawrence, U.S. Attorney's Office,
(USA) Civil Division, Washington, DC

2a

BEFORE: Millett, Pillard, and Wilkins, Circuit
Judges.
ORDER
Upon consideration of the motion for leave to file a motion
to defer appendix, the motion for permission to utilize a
deferred appendix, the motion to order Appellee to
disclose all prior related cases, the amended motion for
summary reversal, the opposition thereto, and the
corrected reply; and the motion for summary affirmance,
the amended opposition thereto, and the corrected reply,
it is
ORDERED that the amended motion for summary
. reversal be denied and the motion for summary
affirmance be granted. The merits of the parties' positions
are so clear as to warrant summary action. See Taxpayers
Watchdog, Inc. v. Stanley, 819 F.2d 294, 297, 260 U.S.
App. D.C. 334 (D.C. Cir. 1987) (per curiam). The district
court did not abuse its discretion in denying Appellant's
discovery motions. See Baker & Hostetler LLP u. United
States DOC, 473 F.3d 312, 318, 374 U.S. App. D.C. 172
(D.C. Cir. 2006); SafeCard Servs., Inc. v. SEC, 926 F.2d
1197, 1200, 288 U.S. App. D.C. 324 (D.C. Cir. 1991).
Additionally, the district court correctly determined that
the government's searches in response to Appellant's
Freedom of Information Act requests were adequate.
See Mobley v. CIA, 806 F.3d 568, 580-81, 420 U.S. App.
D.C. 108 (D.C. Cir. 2015). And despite Appellant's
contentions, the district court correctly concluded that the
declarations submitted in support of the government's
searches were not deficient. See SafeCard Servs., 926 F.2d
at 1201; Fed. R. Civ. P. 56(c)(4). It is

3a

FURTHER ORDERED that the motion for leave to file a
motion to defer appendix and the motion for permission to
utilize a deferred appendix be dismissed as moot. It is
FURTHER ORDERED that the motion to order Appellee
to disclose all prior related cases be denied.
Pursuant to D.C. Circuit Rule 36, this disposition will not
be published. The Clerk is directed to withhold issuance
of the mandate herein until seven days after resolution of
any timely petition for rehearing or petition for rehearing
en banc. See Fed. R. App. P. 41(b); D.C. Cir. Rule 41.
Per Curiam

4a

APPENDIX B
THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
No. 16-cv-2351 (DLF/GMH)
Sara Discepolo,
Appellant,
V.

United States Department of Justice,
Appellee.
On Summary Judgment II
Memorandum Opinion and Final Judgment
January 18, 2019

Before: DABNEY L. FRIEDRICH, United States District
Judge

5a

MEMORANDUM OPINION
Before the Court are the defendant's Renewed Motion for
Summary Judgment, Dkt. 43, and the plaintiffs CrossMotion for Summary Judgment, Dkt. 45.1 On November
15, 2018, Magistrate Judge G. Michael Harvey issued a
Report and Recommendation, Dkt. 69, to which the
plaintiff filed numerous objections, Dkt. 71. For the
reasons that follow, the Court will adopt Judge Harvey's
Report and Recommendation in its entirety. The Court will
therefore grant the defendant's Renewed Motion for
Summary Judgment and deny as moot the plaintiffs CrossMotion for Summary Judgment.2

I. BACKGROUND
Plaintiff Sara Discepolo, proceeding pro se, seeks
information from the U.S. Department of Justice pursuant
to the Freedom of Information Act, 5 U.S.C. ft 552. and the
1 On May 8, 2018, the Court issued a Memorandum Opinion
and Order granting in part and denying in part the defendant's
previous Motion for Summary Judgment, Dkt. 16, and denying
without prejudice the plaintiffs Cross-Motion for Summary
Judgment, Dkt. 18. See Dkt. 41 (adopting Judge Harvey's
Report and Recommendation, Dkt. 33). The Court also issued
a decision on January 18, 2019, Dkt. 74, in which it affirmed
Judge Harvey's November 15, 2018 Memorandum Opinion and
Order, Dkt. 68, denying the plaintiffs motion for discovery,
motion to strike, and motion for sanctions.
2 Because this disposition constitutes a final, appealable
decision under 28 U.S.C. § 1291. the Court will also deny as
moot the plaintiffs pending Motion for Extension of Time to
File
Notice of Appeal or Alternatively
Motion for Certification of Final Judgment, Dkt. 47.

6a

Privacy Act. 5 U.S.C. ft 552a (collectively, FOIA). On July
17, 2017, Judge Emmet Sullivan referred this matter to a
Magistrate Judge for full case management, and Judge
Harvey was assigned to this case. Judge Harvey's
November 15, 2018 Report and Recommendation provides
a thorough summary of the facts and procedural history,
which the Court adopts and will not repeat here. See Dkt.
69 at 2-5.
In brief, the plaintiff submitted two FOIA requests to the
U.S. Attorney's Office for the District of Massachusetts
(USAO-MA) and one FOIA request to the U.S. Attorney's
Office for the District of Connecticut (USAO-CT) on April
17, 2017. See Dkt. 41 at 1-2. The Court previously described
those requests as follows:
First, the plaintiff requested that USAO-MA produce
all documents related to (1) "[a]ny criminal
investigation of [the plaintiff] from January 1, 2000
through December 31, 2000 or until said investigation
terminated"; (2) any "mention of [the plaintiffs] name
in any criminal investigation of any other person from
January 1, 2000 through December 31, 2000 or until
said investigation terminated"; (3) "[information
reflecting that [the plaintiff] was the subject or the
target of any criminal activities occurring from anytime
from January 1, 2000 through December 31, 2000"; and
(4) the plaintiffs "report in August 2000 of having seen
Whitey Bulger in person." Dkt. 18-4 at 7.
Second, the plaintiff requested that USAO-MA
produce all documents related to "[a]ny criminal
investigation of [the plaintiff] (or the mention of [the
plaintiffs] name in any criminal investigation of any

7a

other person) from January 1, 2012 through the
present." Dkt. 18-4 at 9.
Third, the plaintiff requested that USAO-CT produce
information related to her communications with an
Assistant United States Attorney, David X. Sullivan.
The plaintiff requested "all documents in [USAO-CT's]
possession relating in any way" to (1) the plaintiffs
"report to Assistant United States Attorney David X.
Sullivan in August of 2000 that [the plaintiff] was the
target of criminal activities in South Boston,
Massachusetts"; and (2) the plaintiffs "report to
Assistant United States Attorney David X. Sullivan
sometime in August of 2000 that [the plaintiff] had seen
Whitey Bulger in person in South Boston, Newton, or
the Greater Boston area." Dkt. 18-4 at 12.
Id. at 2. On May 8, 2018, the Court—adopting Judge
Harvey's previous Report and Recommendation in its
entirety—granted in part and denied in part the
defendant's motion for summary judgment.3 Id. at 15.
Specifically, the Court granted summary judgment for the
defendant with respect to the requests submitted to USAOMA, but it denied summary judgment without prejudice
with respect to the request submitted to USAO-CT. Id.
Regarding the request to USAO-CT, the Court reasoned
that the office's search of its "CaseView" system might not
have identified responsive material because the reports

3 It did so after considering the plaintiffs 37-page filing raising
numerous objections to Judge Harvey's report and
recommendation, see Dkt. 36, and her reply, Dkt. 40, and after
granting the plaintiffs motion to submit additional evidence,
Dkt. 37, and motion to correct her objections, Dkt. 38.

8a

referenced by Discepolo "were not strictly case-related." Id.
at 12. The Court noted that AUSA Sullivan's email would
be a "reasonable place to search for responsive documents."
Id. (quoting Dkt. 33 at 22). Thus, the Court adopted Judge
Harvey's recommendation that "USAO-CT be instructed to
supplement its declaration to fill" a single "gap in its
demonstration of the adequacy of its search, either by
searching AUSA Sullivan's email or by explaining why
such a search is unnecessary." Id. (quoting Dkt. 33 at 22).
Following this instruction, the defendant filed a Renewed
Motion for Summary Judgment, Dkt. 43, which it
supported with a declaration from AUSA Sullivan
describing a search of his email for responsive documents,
including the terms used and the email systems searched,
see Dkt. 43-2,
7-9. The plaintiff filed an opposition and
Cross-Motion for Summary Judgment, Dkt. 45, on July 26,
2018, in which she raised various objections to the
adequacy and reasonableness of the agency's search. That
same day, the plaintiff also filed a Motion to Take
Discovery, Dkt. 44. On September 19, 2018, the defendant
filed its reply, Dkt. 59, which included supplemental
declarations from David Luczynski, an Attorney Advisor to
the Executive Office for U.S. Attorneys (EOUSA), Dkt. 593, and Elisha Biega, a legal assistant to USAO-CT, Dkt. 592. The plaintiff then sought and was granted leave to file a
surreply. See DktsJ. 57, 58. On October 19, 2018, the
plaintiff filed her surreply, Dkt. 62, along with a motion to
strike the supplemental declarations attached to the
defendant's reply and a request that the defendant be
sanctioned for filing the declarations, Dkt. 61.
On November 15, 2018, Judge Harvey issued a 15-page
Memorandum Opinion and Order, Dkt. 68, denying the

9a

plaintiffs motion to take discovery, her motion to strike,
and her motion for sanctions. On November 29, 2018, the
plaintiff timely filed 34 objections to Judge Harvey's
decision. Dkt. 70. On January 18, 2019, the Court resolved
those objections and affirmed Judge Harvey's decision in
its entirety. Dkt. 74.
Also on November 15, 2018, Judge Harvey issued a 19-page
Report and Recommendation regarding the defendant's
Renewed Motion for Summary Judgment and the
plaintiffs Cross-Motion for Summary Judgment. Dkt. 69.
On November 29, 2018, the plaintiff timely filed 38
objections to Judge Harvey's Report and Recommendation.
Dkt. 71.
As the procedural history makes clear, the plaintiff has
received extensive judicial process since filing this action
in 2016. Her numerous objections—72 in total—to Judge
Harvey's November 15, 2018 opinions mark the latest
development in that process.
II. LEGAL STANDARDS
Under Local Civil Rule 72.3(b), "[a]ny party may file for
consideration by the district judge written objections to the
and
proposed
findings
magistrate
judge's
recommendations ... within 14 days." Local Civ. R. 72.3(b).
Proper objections "shall specifically identify the portions of
the proposed findings and recommendations to which
objection is made and the basis for the objection." Id.
Pursuant to Local Civil Rule 72.3(c), "a district judge shall
make a de novo determination of those portions of a
magistrate judge's findings and recommendations to which

10a

objection is made." Local Civ. R. 72.3(c); see also Means v.
District of Columbia. 999 F. Sudd. 2d 128. 132 (D.D.C.
2013) ("District courts must apply a de novo standard of
review when considering objections to, or adoption of, a
magistrate judge's Report and Recommendation."). But
"objections which merely rehash an argument presented
and considered by the magistrate judge are not properly
objected to and are therefore not entitled to de novo
review." Hall v. Pep 7. of Commerce, No. 16-c,v-1619, 2018
U.S. Dist. LEXIS 72110. 2018 WL 2002483. at *2 (D.D.C,
Apr. 30, 2018): see also Shurtleff v. EPA, 991 F. Sudd. 2d 1,
8 (D.D.C. 2013). The district judge "may accept, reject, or
modify, in whole or in part, the findings and
recommendations of the magistrate judge, or may
recommit the matter to the magistrate judge with
instructions." Local Civ. R. 72.3(c).
In accordance with Local Civil Rule 72.3, the Court must
assess the parties' summary judgment motions. As Judge
Harvey and this Court have previously explained, FOIA
cases are generally resolved on motions for summary
judgment. See Bray ton v. Off, of the U.S. Trade Rep., 641
F.3d 521. 527. 395 U.S. Add. D.C. 155(D.C. Cir. 2011). The
agency has the burden of justifying its response to the
FOIA request it received, and the federal court reviews the
agency's response de novo. 5 U.S.C. ft 552(a). "To prevail on
summary judgment, an agency must show that it made a
good faith effort to conduct a search for the requested
records, using methods which can be reasonably expected
to produce the information requested, which it can do by
submitting [a] reasonably detailed affidavit, setting forth
the search terms and the type of search performed, and
averring that all files likely to contain responsive materials

11a

(if such records exist) were searched." Reporters Comm, for
Freedom of Press v. FBI, 877 F. 3d 399. 402 (D.C. Cir. 2017)
(internal quotation marks omitted). Such affidavits or
declarations "are accorded a presumption of good faith,
which cannot be rebutted by 'purely speculative claims
about the existence and discoverability of other
documents.'" SafeCard- Servs. v. SEC, 926F.2d 1197, 1200,
288 U.S. Add. D.C. 324 (D.C. Cir. 1991) (internal quotation
marks omitted). And although "an affidavit must explain
in reasonable detail the scope and method of the search
conducted," it "need not set forth with meticulous
documentation the details of an epic search for the
requested records." Reporters Comm., 877 F.3d at 404
(internal quotation marks omitted). In addition, a
defendant may seek summary judgment based on searches
performed after the inception of litigation in federal court.
See, e.g., Ray u. Fed. Bureau of Prisons, 811 F. Sudd. 2d
245. 247-48. 250 (D.D.C. 2011).
More generally, under Rule 56. a court grants summary
judgment if the moving party "shows that there is no
genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law." Fed. R. Civ. P.
56(a): see also Anderson v. Liberty Lobby. Inc.. 477 U.S.
242. 247-48. 106 S. Ct. 2505. 91 L. Ed. 2d 202 (1986). A
"material" fact is one with the potential to change the
substantive,outcome of the litigation. See Liberty Lobby,
477 U.S. at 248: Holcomb v. Powell. 433 F.3d 889. 895. 369
U.S. App. D.C. 122 (D.C. Cir. 2006). A dispute is "genuine"
if a reasonable jury could determine that the evidence
warrants a verdict for the nonmoving party. See Liberty
Lobby. 477 U.S. at, 248: Holcomb, 433 F.3d at 895. "If there
are no genuine issues of material fact, the moving party is

12a

entitled to judgment as a matter of law if the nonmoving
party 'fails to make a showing sufficient to establish the
existence of an element essential to that party's case, and
on which that party will bear the burden of proof at trial.'"
Holcomb, 433 F.3d at 895 (quoting Celotex Corn, u. Catrett.
477 U.S. 317. 322. 106 S. Ct. 2548. 91 L. Ed. 2d 265 (1986)).
III. ANALYSIS
The Court has carefully reviewed each of the plaintiffs
objections and has undertaken a de novo review of the
entirety of Judge Harvey's thorough Report and
Recommendation. Based on its independent assessment of
the record and the parties' cross-motions for summary
judgment, the Court finds that the defendant's search was
adequate and reasonable.
%

!

The Court previously held that the defendant's response to
the plaintiffs FOIA request to USAO-CT was deficient in
only one respect: its failure to search AUSA Sullivan's
email. Dkt. 41 at 12. Accordingly, USAO-CT was
"instructed to supplement its declaration to fill this gap in
its demonstration of the adequacy of its search, either by
searching AUSA Sullivan’s email or by explaining why
such a search is unnecessary." Id. (quoting Dkt. 33 at 22).
The defendant filled this gap by filing a declaration from
AUSA Sullivan that describes a search of his Outlook
account and two email archive systems using the terms
"Sara Discepolo," "South Boston," and "Massachusetts."
Dkt. 43-2, THf 8-9 (Sullivan Declaration). The Sullivan
declaration reports that these searches produced no
responsive records, id., and explains why a search of AUSA
Sullivan's paper and electronic files was unnecessary, id. U

13a

10. The declaration further avers that all systems within
USAO-CT likely to contain responsive records were
searched. Id. U 11.
In addition, the defendant filed supplemental declarations
explaining that the email databases searched included
emails dating from March 1, 2010 to the present, Dkt. 592, Tin 5-6 (Biega Declaration), that a legal assistant also
searched the case management system used to track all
matters handled by USAO-CT, id.
1, 7-9, and that
EOUSA did not instruct USAO-CT to limit its search to
first-party records or use any exemptions or exclusions to
limit the scope of USAO-CT's search, Dkt. 59-3, THf 6, 8
(Luczynski Declaration).
The searches described are adequate and reasonable.
"There is no requirement that an agency search every
record system." Oelesbv v. U.S. Department of the Army.
920 F.2d 57. 68. 287 U.S. Add. D.C. 126 (D.C. Cir. 1990).
An agency need only "show that it made a good faith effort
to conduct a search for the requested records, using
methods which can be reasonably expected to produce the
information requested." Reporters Comm, for Freedom of
Press. 877 F.3d at 402 (internal quotation marks omitted).
An agency can make this showing "by submitting a
reasonably detailed affidavit, setting forth the search
terms and the type of search performed, and averring that
all files likely to contain responsive materials (if such
records exist) were searched." Id. (alteration adopted,
internal quotation marks omitted). The declarations
submitted by the defendant easily satisfy this standard.
Given the scope of the plaintiffs request—which focused on
her own reports to AUSA Sullivan, Dkt. 18-4 at 12—it was
reasonable for the agency to organize its searches using her

14a

name. Further, the locations and time frames covered by
the searches were reasonable in light of the narrow gap
identified in the Court's May 8, 2018 ruling—namely, the
need to search AUSA Sullivan's email records—and the
documents in the defendant's possession.

*

The plaintiff objects to nearly every detail. of Judge
Harvey's analysis. However, several of her 38 objections
relate to her motion for discovery and motion to strike. See,
e.g., Dkt. 71 (Objections 3, 34, 37). Others cover terrain
addressed directly, and at length, by Judge Harvey, or seek
to relitigate issues already determined by the Court's May
8, 2018 decision. See, e.g., id. (Objections 2, 23-24, 28). The
plaintiffs remaining objections misconstrue Judge
Harvey's decision, are beyond the scope of the plaintiffs
FOIA request, are contrary to controlling legal authority or
the factual record, or are irrelevant to the issues presented.
See, e.g., id. (Objections 1, 4-22, 25-27, 29-33, 35-36, 38).
The Court notes specifically that Judge Harvey did not, as
the plaintiff argues, draw a factual inference in favor of the
defendant by concluding that the email databases searched
were the only databases accessible to the agency, id.
(Objection 10), or by assuming that the agency used the
listed search terms separately and not in a compound
search limited to records containing all three terms
together, id. (Objection 11). To be sure, as Judge Harvey
explained, "all reasonable inferences from the facts in the
record must be made in favor of the non-moving party."
Dkt. 69 at 6-7 (citing Liberty Lobby. 477 U.S. at 255). But
it was not an "inference" to accept at face value the
agency's good-faith averment that it searched "[a]ll
systems of records within the USAO-CT likely to contain
responsive records." Dkt. 43-2, f 11; see also Dkt. 59-2,

15a

10-12. And no reasonable juror could infer from this
language that the agency declined to search accessible
databases covering emails from before 2010. See Dkt. 43-2
1ft 8-9, 11 (describing search of three email databases and
declaring that all systems of records likely to contain
responsive records were searched). Likewise, no reasonable
juror could interpret AUSA Sullivan's declaration as
describing a compound search connecting multiple terms—
assuming such a search is even possible in Outlook and the
other email databases described. See Dkt. 49-2, t 8. Indeed,
the declaration specifically describes multiple "sets of
searches" using those terms, id. t 9 (emphasis added), and
lists each term separately with its own pair of quotation
marks, id. Iff 8-9.
In short, after reviewing the parties' cross-motions, the
parties'
briefs,
Judge
Harvey's
Report
and
Recommendation, the plaintiffs objections thereto, and the
entire record in this case, de novo, the Court concludes that
Judge Harvey carefully and persuasively applied the
correct legal standards, and it now adopts the entirety of
Judge Harvey's reasoning and analysis as the Court's own.
The Report and Recommendation is appended below.

CONCLUSION
For the foregoing reasons, the Court grants the defendant's
Renewed Motion for Summary Judgment, denies as moot
the plaintiffs Cross-Motion for Summary Judgment, and
denies as moot the plaintiffs Motion of Extension of Time
to File 28 U.S.C. § 1292(a)(1) Notice of Appeal or
Alternatively Motion for Certification of Final Judgment.
A separate order accompanies this memorandum opinion.

\

16a

/s/ Dabney L. Friedrich
DABNEY L. FRIEDRICH
United States District Judge
January 18, 2018
ORDER
For the reasons stated in the accompanying memorandum
opinion, it is
ORDERED that the defendant's Renewed Motion for
Summary Judgment, Dkt. 43, is GRANTED;
ORDERED that the plaintiffs Cross-Motion for Summary
Judgment, Dkt. 45, is DENIED AS MOOT;
ORDERED that the plaintiffs Motion of Extension of Time
to File 28 XJ.S.C. § 1292(a)(1) Notice of Appeal or
Alternatively Motion for Certification of Final Judgment,
Dkt. 47, is DENIED AS MOOT.
The Clerk of Court is directed to close this case.
Is/ Dabney L. Friedrich
DABNEY L. FRIEDRICH
United States District Judge
January 18, 2018

17a

APPENDIX C
THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
No. 16-cv-2351 (DLF/GMH)
Sara Discepolo
Appellant,
v.
United States Department of Justice,
Appellee.
On Summary Judgment II
Report and Recommendation
November 15, 2018

Before: G. MICHAEL HARVEY, UNITED STATES
MAGISTRATE JUDGE.

18a

REPORT AND RECOMMENDATION
As Defendant recognizes, ”[t]he only issue remaining in
this case," which was brought by Plaintiff Sara Discepolo
under the Freedom, of Information Act ("FOIA"). 5 U.S.C. ft
552. "is the adequacy of the search conducted by the United
States Attorney's Office for the District of Connecticut
('USAO-CT') with respect to the email of Assistant United
States Attorney David X. Sullivan ('AUSA Sullivan')." ECF
No. 43 at 1. Specifically, Defendant's original motion for
summary judgment was granted in part and denied in part,
with directions for it to "fillQ [the] gap in its demonstration
of the adequacy of its search, either by searching AUSA
Sullivan's email or by explaining why such a search is
unnecessary." ECF No. 41 at 12 (quoting Discepolo u. U.S.
Dev'l of Justice. No. 16-cv-2351 (DLF/GMH). 2018 U.S.
Dist. LEXIS 9302. 2018 WL 504655. at *12 (D.D.C. Jan. 19.
2018). report and recommendation adopted Memorandum
Opinion and Order Adopting Report and Recommendation
of Magistrate Judge, Discepolo v. U.S. Dep't of Justice. No.
16-cv-2351. 2018 U.S. Dist. LEXIS 220866 (DLF/GMH)
(D.D.C. May 8, 2018). ECF No. 41). Defendant has now
filed a renewed motion for summary judgment supported
by new three declarations, and Plaintiff has filed a cross
motion for summary judgment, both of which are ripe for
adjudication.1 Because Defendant has demonstrated that
1 The following are the most relevant docket submissions for
the purposes of these motions: (1) Defendant's renewed motion
for summary judgment (ECF No. 43) and the declaration of
David X. Sullivan dated June 28, 2018 ("June 2018 Sullivan
Declaration") (ECF No. 43-2); (2) Plaintiffs cross-motion for
summary judgment and opposition to Defendant's renewed
motion for summary judgment and attachments (ECF No. 45
through 45-3; ECF No. 46 through 46-3); (3) Defendant's reply

19a

its searches for documents responsive to Plaintiffs FOIA
requests were adequate, Defendant's renewed motion for
summary judgment should be granted and Plaintiffs cross
motion for summary judgment should be denied.

I. BACKGROUND
The pertinent background of this dispute is laid out in the
undersigned's Report and Recommendation from January
19, 2018, on Defendant's original motion for summary
judgment (the "January 19 Report and Recommendation").
See Disceoolo, 2018 U.S. Dist. LEXIS 9302, 2018 WL
504655, at *2-4. As relevant here, on April 17, 2017,
Plaintiff sent requests to the United States Attorney's
Office for the District of Massachusetts ("USAO-MA") and
to USAO-CT. 2018 U.S. Dist. LEXIS 220867. fWLl at *2.
The requests to USAOMA sought documents "concerning
criminal investigations in which [Plaintiff] was mentioned
as the target, the victim, or otherwise." Id. The requests to
in further support of its renewed motion for summary
judgment and opposition to Plaintiffs cross-motion for
summary judgment (ECF No. 59; ECF No. 60) and the.
declarations of Elisha Biega dated Sept. 19, 2018 ("September
2018 Biega Declaration") (ECF No. 59-2; ECF No. 60-2) and of
David Luczynski dated Sept. 19, 2018 ("September 2018
Luyczynski Declaration") (ECF No. 59-3; ECF No. 60-3); and
(4) Plaintiffs reply in further support of her cross motion for
summary judgment and sur-reply in further opposition to
Defendant' renewed motion for summary judgment (ECF No.
62; ECF No. 63).
Issued
contemporaneously
with
this
Report
and
Recommendation is a Memorandum Opinion and Order
resolving Plaintiffs non-dispositive motions, i.e., her motion to
take discovery (ECF No. 44) and motion to strike (ECF No. 61).

20a

USAO-CT sought "all documents in [its] possession
relating in any way" to (1) Plaintiffs "report to Assistant
United States Attorney David X. Sullivan in August of
2000 that [Plaintiff] was the target of criminal activities in
South Boston, Massachusetts," and (2) Plaintiffs "report to
Assistant United States Attorney David X. Sullivan
sometime in August of 2000 that [Plaintiff] had seen
Whitey Bulger"—the organized crime boss successfully
prosecuted by USAO-MA in 2013—"in person in South
Boston, Newton, or the Greater Boston area." 2018 U.S.
Dist. LEXIS 220867. fWLl at *2 (alterations in original)
(quoting Plaintiffs FOIA requests). In response, "USAOCT searched for 'Discepolo' and 'Sara Discepolo' in
electronic files, searched existing hard files bearing her
name, sought additional hard files bearing her name but
found none, and quizzed AUSA Sullivan using her name."
2018 U.S. Dist. LEXIS 220867. fWLl at *10. Although
USAO-CT searched for responsive documents in
Defendant's case management system CaseView, which
'"tracks several types of information including the names
of plaintiffs, investigative targets, defendants, when the
investigation was opened, and when it was closed,' as well
as the location of archived documents," it did not search
AUSA Sullivan's email for mentions of Plaintiff. 2018 U.S.
Dist. LEXIS 220867. fWLl at *10-11 & n.9.
Plaintiff raised several arguments in opposition to
Defendant's original motion for summary judgment and in
support of her own cross motion for summary judgment.
Beyond contending that the substantive searches were
inadequate, she also argued that (1) Defendant should be
deemed to have made admissions as to some of the critical
issues in this case because it both failed to respond to

21a
/

Plaintiffs requests for admissions on the relevant
questions and improperly asserted that it lacked sufficient
knowledge to admit or deny the relevant allegations in its
answer; (2) certain declarations submitted in support of
Defendant's original motion—including the declaration of
Elisha Biega, the legal assistant who performed USAOCT's searches, and the declaration of David Luczynski, an
attorney advisor at the Executive Office for U.S. Attorneys
("EOUSA") who outlined EOUSA's role with respect to
Plaintiffs FOIA requests—were deficient because they
were based on hearsay, based "on information and belief,"
or not compliant with 28 U.S.C. ft 1746 because not sworn
under penalty of perjury; (3) Defendant improperly limited
its searches to "systems of records" in contravention of
FOIA, which is "in no way limited to records contained
within a system of records"; and (4) Defendant was
improperly withholding records pursuant to a FOIA
exemption. 2018 U.S. Dist. LEXIS 220867. [WLJ at *7-9.
12-13 & n.8. The January 19 Report and Recommendation
rejected each of those arguments,2 as well as most of
Plaintiffs arguments about the inadequacy of Defendant's
searches, specifically finding that Defendant's search
terms were reasonable and that it had searched most of the
appropriate locations. 2018 U.S. Dist. LEXIS 220867. fWLl
at *10-11. However, the undersigned found that, because
"Plaintiffs request to USAO-CT sought information
regarding reports she reportedly made to AUSA Sullivan
that were not strictly case-related," Defendant should have

2 Plaintiff made similar arguments in a motion to strike (ECF
No. 20), which the Court denied in its entirety. Disceoolo v.
U.S. Derrt of Justice. No. 16-cv-2351 (DLF/GMH). 2018 U.S.
Dist. LEXIS 220867. 2018 WL 500641 (D.D.C. Jan. 19. 2018).

22a

searched AUSA Sullivan's email, as it was reasonable to
believe that Plaintiffs reports to him might have been
transmitted via email. 2018 U.S. Dist. LEXIS 220867. fWLl
at *12. The January 19 Report and Recommendation
therefore
recommended
allowing
Defendant
to
"supplement its declaration to fill this gap in its
demonstration of the adequacy of its search, either by
searching AUSA Sullivan's email or by explaining why
such a search is unnecessary." Id. Quoting those specific
words, Judge Friedrich adopted the January 19 Report and
Recommendation in full in a May 8, 2018 Memorandum
Opinion and Order (the "May 8 Memorandum Opinion").
ECF No. 41 at 12. Judge Friedrich denied Plaintiffs motion
for reconsideration of that decision on November 2, 2018.
ECF No. 65.
Meanwhile, Defendant filed its renewed motion for
summary judgment on June 28, 2018. The renewed motion
is supported by a supplemental declaration from AUSA
Sullivan (the "Supplemental Sullivan Declaration") stating
that, although he does not recall communicating with
Plaintiff, in 2018 he searched his email for responsive
documents. ECF No. 43-2,
5, 7-9. The declaration
describes those searches, including the terms, used ("Sara
Discepolo," "South Boston," and "Massachusetts") and the
email systems searched, and reports that the searches
"yielded no responsive records." Id.,
8-9. After Plaintiff
filed her opposition to Defendant's renewed motion,
Defendant further filed supplemental declarations
addressing issues raised in the opposition. Ms. Biega, who
assisted Mr. Sullivan in performing those searches of his
email, supplied an additional declaration (the
"Supplemental Biega Declaration") stating, among other

23a

things, that the searches "yielded no records." ECF No. 592, Iff 4-6. Defendant also filed a supplemental declaration
from Mr. Luczynski (the "Supplemental Luczynski
Declaration"), who reports, among other things, that
EOUSA did not use any FOIA exemption to limit its
interpretation of Plaintiffs FOIA requests or to limit the
scope of USAO-CT's search for records. ECF No. 59-3,
1,
7-8.

II. DISCUSSION

A. Legal Standard
FOIA pi'esumes that an informed citizenry is "vital to the
functioning of a democratic society, needed to check against
corruption and to hold the governors accountable to the
governed." NLRB v. Robbins Tire & Rubber Co.. 437 U.S.
214. 242. 98 S. Ct 2311. 57 L. Ed. 2d 159 (1978). It was
enacted to "pierce the veil of administrative secrecy and to
open agency action to the light of public scrutiny," and
generally favors "full agency disclosure." Dev't of the Air
Force v. Rose. 425 U.S. 352. 360-61. 96 S. Ct. 1592. 48 L.
Ed. 2d 11 (1976) (quoting Rose v. Dep't of the Air Force, 495
F.2d 261, 263 (2d Cir. 1974)). All the same, it incorporates
nine exemptions aimed at balancing these ideals with the
possibility that "legitimate governmental and private
interests could be harmed by release of certain types of
information." Critical Mass Energy Project v. Nuclear
Resulatorv Comm'n, 975F.2d 871. 872, 298 U.S. Add. D.C.
8 (D.C. Cir. 1992) (en banc) (quoting FBI v. Abramson. 456
U.S. 615. 621. 102 S. Ct. 2054. 72 L. Ed. 2d 376 (1982)).

24a

FOIA cases are generally resolved on motions for summary
judgment. Bray ton u. Office of the U.S. Trade Rev.. 641
F.3d 521. 527. 395 U.S. Add. D.C. 155 (D.C. Cir. 2011). The
agency has the burden of justifying its response to the
FOIA request it received, and the federal court reviews its
response de novo. 5 U.S.C. ft 552(a)(4)(B). "A FOIA
defendant is entitled to summary judgment if it proves
'beyond material doubt Q that it has conducted a search
reasonably calculated to uncover all relevant documents.'"
Cornucopia Inst, v. Asric. Mkts. Serv., 312 F. Sudd. 3d 85.
90 ID.D.C. 2018) (alteration in original) (quoting Morlev v.
CIA. 508F.3d 1108. llll 378 U.S. Add. D.C. 411 (D.C. Cir.
2007)). In determining whether the agency has shown that
"it acted in accordance with the statute, the court may rely
on '[a] reasonably detailed affidavit, setting forth the
search terms and the type of search performed, and
averring that all files likely to contain responsive materials
(if such records exist) were searched.'" Valencia-Lucena v.
U.S. Coast Guard. 180 F.3d 321. 326. 336 U.S. Add. D.C.
386 (D.C. Cir. 1999) (alteration in original) (quoting
Oelesbv v. U.S. Dev't of the Arm,v. 920F.2d 57, 68. 287 U.S.
Add. D.C. 126 (D.C. Cir. 1990)). Such affidavits or
declarations "are accorded a presumption of good faith,
which cannot be rebutted by 'purely speculative claims
about the existence and discoverability of other
documents.'" SafeCard Servs., Inc, v. SEC, 926 F.2d 1197,
1200, 288 U.S. Add. D.C. 324 (D.C. Cir. 1991) (quoting
Ground Saucer Watch. Inc, u. CIA, 692 F.2d 770. 771. 224
U.S. Add. D.C. 1 (D.C. Cir. 1981)). Moreover, it is wellsettled in the D.C. Circuit that a defendant may seek
summary judgment based on searches performed after the
inception of litigation in federal court. See, e.g., People for
the Ethical Treatment of Animals. Inc, v. Bureau of Indian

25a

Affairs. 800 F. Sudd. 2d 173. 178-79 nn.2-3 (D.D.C. 2011)
(stating that position that "prelitigation searches are the
only searches material to the adequacy determination is . .
. legally unsupportable" and that courts often require an
agency to conduct a more thorough search to remedy an
inadequate one); see also Ray v. Fed. Bureau of Prisons. 811
F. Sudd. 2d 245. 247-48. 250 (D.D.C. 2011) (granting
summary judgment for defendant where original FOIA
request mishandled and search did not commence until
after filing of complaint).
More generally, summary judgment is appropriate "if the
movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a
matter of law." Fed. R. Civ. P. 56(a): Anderson v. Liberty
Lobby. Inc.. 477 U.S. 242. 248. 106 S. Ct. 2505. 91 L. Ed.
2d 202 (1986). In adjudicating such a motion, all
reasonable inferences from the facts in the record must be
made in favor of the non-moving party. Anderson. 477 U.S.
at 255. To prevail, the moving party must show that there
is no genuine issue of material fact. Celotex Coro, v. Catrett,
477 U.S. 317. 323. 106 S. Ct. 2548. 91 L. Ed. 2d 265 (1986).
To do this, it may cite the record, including "affidavits or
declarations." Fed. R. Civ. P. 56(c)(1)(A). Factual assertions
made in the moving party's affidavits or declarations may
be accepted as true in the absence of contrary assertions
made in affidavits, declarations, or documentary evidence
submitted by the non-moving party. Neal v. Kelly. 963 F.2d
453. 456. 295 U.S. Aim. D.C. 350 (D.C. Cir. 1992).

B. Defendant's Motion for Summary Judgment

26a

As noted, the Court has already ruled on Defendant's
original motion for summary judgment, granting it in large
part, but denying it in part to allow USAO-CT to shore up
its proof by addressing the search of AUSA Sullivan's
email. In response to Defendant's renewed motion for
summary judgment, Plaintiff has recycled a number of
arguments from her opposition to Defendant's first motion
for summary judgment, notwithstanding the fact that
those arguments have already been rejected either
explicitly or implicitly. The following discussion therefore
refers freely to the reasoning of the January 19 Report and
Recommendation, and the May 8 Memorandum and Order
adopting it, resolving the prior motion for summary
judgment.
1. Defendant's Admissions
Plaintiff first argues that Defendant should be deemed to
have admitted that responsive records existed because it
failed to respond to Plaintiffs requests for admissions3 and
because its answer allegedly improperly stated that it had
insufficient knowledge at the time to admit or deny certain
allegations in the complaint. ECF No. 45-1 at 4-8. The
undersigned recommended rejecting these arguments
when they were made in opposition to Defendant's original
motion for summary judgment, calling the first "frivolous"
because Defendant had been relieved of any duty to

3 Plaintiff served two sets of requests for admissions on
Defendant in January and February 2017. ECF No. 11 at 2.
Defendant then moved for a protective order, noting that a
Plaintiff must clear a high burden to justify discovery in a
FOIA case. Id. at 2, 4. Judge Sullivan granted the motion on
April 21, 2017. Minute Order dated Apr. 21, 2017.

27a

respond to Plaintiffs requests for admissions by the entry
of a protective order and finding that the second failed
because Plaintiff had not shown that Defendant had
engaged in bad faith or evasive pleading, as is normally
required before "the sanction of deeming an allegation as
admitted" is imposed. Discepolo, 2018 U.S. Dist. LEXIS
9302, 2018 WL 504655, at *7. Judge Friedrich followed that
recommendation and rejected the arguments in her May 18
Memorandum Opinion adopting the January 19 Report
and Recommendation. ECF NO. 41 at 6-7. This is now the
fifth submission in which Plaintiff has raised the argument
(ECF No. 13 at 6-7; ECF No. 19 at 7-9; ECF No. 36 at 2-5;
ECF No. 461 at 4-5; ECF No. 61-1 at 2-5) and it is no more
successful this time.
2. Plaintiffs Objections to Defendant's Declarations
Plaintiff makes a number of objections to formal aspects of
the supplemental declarations submitted with Defendant's
renewed motion for summary judgment. These include (1)
a suggestion that the declaration of David Luczynski filed
in support of Defendant's original motion for summary
judgment (the "First Luczynski Declaration") failed to
comply with 28 ZJ.S.C. ft 1746. (2) assertions that the
declarations of AUSA Sullivan and Ms. Biega are deficient
because neither is a "supervisory officialQ qualified to
make an averment of adequate search," and (3) an attempt
to show that Mr. Luczynski is incompetent to testify on the
subjects in his declarations and that his declarations are
contradictory and therefore cannot be accorded a
presumption of good faith. ECF No. 31-1; ECF No. 45-1 at
12-14; 20-21; ECF NO. 62 at 16. These objections fail.

/

28a

First, to the extent that the objections target declarations
filed in connection with Defendant's original motion for
summary judgment, they fall flat because it is not
necessary to rely on any of those original declarations to
answer the narrow question presented here regarding the
search of AUSA Sullivan's email. Second, the objection that
Mr. Luczynski's prior declaration failed to comply with 28
U.S.C. § 1746 was already rejected in the January 19
Report and Recommendation and the May 8 Memorandum
Opinion. See Discevolo. 2018 U.S. Dist. LEXIS 9302. 2018
WL 504655. at *9 n.8: ECF No. 41 at 8. Similarly, those
opinions dismissed Plaintiffs arguments, raised again here
(ECF No. 45-1 at 13, 20-21), that declarations detailing the
searches performed to identify documents responsive to a
FOIA request must be made by officials who supervised
rather than performed the searches. As explained in the
January 19 Report and Recommendation, "it is appropriate
in a FOIA case to submit a declaration from a person who
conducted the search or a person who supervised the
search." Discepolo. 2018 U.S. Dist LEXIS 9302. 2018 WL
504655. at *8. Thus, Plaintiffs renewed attempts to
discredit the Supplemental Sullivan Declaration and
Supplemental Biega Declaration on this ground fail.
That leaves Plaintiffs arguments that the First Luczynski
Declaration and the Supplemental Luczynski Declaration
are deficient. ECF No. 45-1 at 13-14; ECF No. 62 at 13-14.
She asserts that Mr. Luczynski lacks sufficient personal
knowledge to testify (1) that EOUSA did not direct USAOCT's searches for documents and (2) that EOUSA did not
use any exemption to limit its interpretation or the FOIA
requests at issue or the scope of EOUSA's search. However,
the declarations clearly state that Mr. Luczynski's

29a

responsibilities include "acting as liaison with other
divisions and offices of DO J in responding to requests and
litigation" pursuant to FOIA, reviewing requests for
records located in United States Attorneys' Offices,
reviewing searches conducted in response to such requests,
and preparing responses regarding FOIA exemptions. EOF
No. 31-1, 1f 1; EOF No. 59-3, K 1. He further states that he
is familiar with the procedures followed by EOUSA in
addressing FOIA requests, including the requests at issue
here, and that his declarations are based on his review of
files, his personal knowledge, and information acquired
through performance of his duties. EOF NO. 31-1, Hlf 2-3;
EOF No. 59-3, If If 2-3. That is sufficient to make him
competent to testify that EOUSA does not direct the
searches of individual U.S. Attorneys' Offices, but that the
U.S. Attorneys' Offices "determine the best way to locate
responsive information." EOF No. 31-1, 1f 6 EOF No. 59-3,
K 4. Indeed, Mr. Luczynski asserts that the only instruction
EOUSA provides to U.S. Attorneys' Offices is to 'read|] the
[FOIA] request carefully and perform[] a search for the
specific records sought by the requester." EOF No. 59-3, 1f
4. That assertion is borne out by the memorandum
attached to the Supplemental Sullivan Declaration from
EOUSA, which directs USAO-CT to "read the request
carefully," "search only for the specific records sought by
the requester," and "complete the accompanying forms"
when the search is completed.4 ECF No. 43-2 at 7.
4 Plaintiffs complaint, repeated throughout her opposition to
the renewed motion for summary judgment, that the
memorandum limited USAO-CT's search to "first-party
records," that is, "records about the Plaintiff as opposed to
records that may concern third-parties" (ECF NO. 45-1 at 8) is
not accurate. The memorandum states, "Please read the

30a

Moreover, those assertions, which establish that EOUSA's
practice is not to interfere in the manner in which an
individual U.S. Attorney's Office conducts its FOIA
searches, also support Mr. Luczynski's assertions that
"EOUSA has not used any exemption or exclusion to limit
its interpretation of [PJlaintiffs FOIA request" and that
"EOUSA has not used any exemption or exclusion to limit
the scope of the USAO-CT's search for records responsive
to [P]laintiffs FOIA request." ECF No. 59-3, KH 7-8.
Plaintiffs attempts to uncover contradictions in the
declarations also fizzle. Plaintiff asserts that Ms. Biega's
statement in her first declaration (which was submitted in
connection with Defendant's original motion for summary
judgment) that she "identifies], discuss[es], and ship[s]
records as directed by EOUSA" (ECF No. 16-2, H 1)
contradicts Mr. Luczynski's assertions that EOUSA leaves
it to the individual U.S. Attorneys' Offices to determine
how best to search for responsive documents. ECF No. 451 at 13. Specifically, Plaintiff contends that "identification
is part of the search process." Id. However, the fact that
EOUSA "directed" USAO-CT to "identify . . . records" does
not mean, as Plaintiff would have it, that "EOUSA . . .
actually conducted the search." Id. Indeed, that
request carefully as it is not a typical first-party request for all
records; rather, this request seeks specific documents." ECF
No. 43-2 at 7. It is not a reasonable to interpret that sentence
as limiting any search to records about Plaintiff, rather than
limiting any search to the records specifically requested. In any
case, Plaintiffs actual requests did seek a specific and limited
range of records regarding her reports to AUSA Sullivan and,
as discussed both in the January 19 Report and
Recommendation and below, focusing the searches on
Plaintiffs name was reasonable. See, e.g., Disceoolo. 2018 U.S.
Dist. LEXIS 9302. 2018 WL 504655. at *10.

31a

supposition is directly contradicted by the memorandum
discussed above. Finally, Plaintiff insists that Mr.
Luczynski's assertion that his responsibilities include
"locating responsive records" (ECF No. 31-1, | 1; ECF No.
59-3, 1 1) negates his statements that EOUSA does not
guide the searches performed by U.S. Attorneys' Offices.
ECF No. 45-1 at 14. However, both the First Luczynski
Declaration and the Supplemental Luczynski Declaration
make clear that some FOIA requests seek documents held
by EOUSA, itself. ECF No. 31-1, t 1; ECF No. 59-3, 1 1.
The reasonable interpretation of Mr. Lyczynski's
statements, then, is that while Mr. Luczynski might locate
responsive records when they are held at EOUSA, he does
not do so when the records are held elsewhere, such as at a
U.S. Attorney's Office.
In short, Plaintiff has presented no reason to discount the
declarations submitted by Defendant in support of its
motion.
3. Adequacy of Defendant's Searches
Plaintiff contends that Defendant has not shown that
USAO-CT's supplemental searches of AUSA Sullivan's
email were "reasonably calculated to uncover all relevant
documents." Morlev. 508 F.3d at 111.4. This argument, too,
is unsuccessful.
The Supplemental Sullivan Declaration asserts that on
January 30, 2018, he and Ms. Biega searched his
Department of Justice ("DOJ") Outlook email account
using the search terms "Sara Discepolo," "South Boston,"
and "Massachusetts." ECF No. 43-2, H 8. Ms. Biega
clarifies that AUSA Sullivan's Outlook account contained
all emails sent or received "beginning two years prior to

32a

January 30, 2018." ECF No. 59-2, If 4. Using the same
search terms, AUSA Sullivan and Ms. Biega also searched
his archived DOJ emails using "USA Mail SearchProofpoint, which includes emails sent or received on or
after March 1, 2015," and the "Legacy IAP email archive,"
which includes emails sent or received between March 1,
2010, and March 1, 2015. ECF No. 43-2, t 9; ECF No. 592, Tff 5-6. Both declarants assert that those searches
yielded no records. ECF No. 43-2, UU 8-9; ECF No. 59-2, ^1
4-6.
The declarations go beyond describing the searches of
emails, however. AUSA Sullivan avers that his paper and
electronic files "are organized by the name of a case or
investigation." ECF No. 43-2, ^ 10. Because he was not
involved in any investigation of Mr. Bulger, Sara Discepolo,
or criminal activities in South Boston, no paper or
electronic files would exist that are responsive to Plaintiffs
requests. Id. Ms. Biega asserts that she searched CaseView
in both January 2017 and September 2018 for files
including Plaintiffs name in the "witness field" and found
nothing. ECF No. 59-2,
7-9. She further "made every
effort to search the Administrative File Systems located
within the USAO-CT that were likely to contain"
responsive records, to no avail. Id.,
10-11. Ms. Biega is
"not aware of any other locations within USAO-CT where
responsive records may be found." Id., 10.
These searches fulfill Defendant's obligation to perform a
reasonable search for responsive documents. The search
terms are designed to capture documents included within
Plaintiffs FOIA requests, which sought documents related
to her alleged reports to AUSA Sullivan about being a
target of criminal activities in South Boston and about

33a

seeing Mr. Bulger in that area. As noted in the January 19
Report and Recommendation, "[although Plaintiff insists
these searches were too narrow"—as she does again here
(ECF No. 45-1 at 9, 15)—"it is unclear what further search
terms could have been used" to find responsive information
"once the searches using her name failed to bear fruit."
Discevolo. 2018 U.S. Dist. LEXIS 9302. 2018 WL 504655.
at *10. Thus, "Defendant's use of Plaintiffs name to
organize its searches was reasonable" and "followed
logically from the particular requests Plaintiff submitted."5
2018 U.S. Dist. LEXIS 220867. fWL] at *10. 12. And,
indeed, these searches "yielded no records relating to any
communication or contact between AUSA Sullivan and an
individual named Sara Discepolo." ECF No. 59-2, K 4.
Moreover, the search locations were also reasonable. The
May 8 Memorandum Opinion specifically adopted the
recommendation in the January 19 Report and
Recommendation that "USAO-CT be instructed to

5 Plaintiffs suggestion that the search was impermissibly narrow because
focused on "records about. . . Plaintiff as opposed to records that may
concern third-parties" should fail. ECF No. 45-1 at 8-11, 14-15. Plaintiffs
requests to USAO-CT clearly sought information about reports that she
herself made, asking for documents related to "[m]y report to [AUSA
Sullivan] . . . that I was the target of criminal activities in South Boston,
Massachusetts," and ”[m]y report to [AUSA Sullivan]. . . that I had seen
Whitey Bulger in person." ECF No. 1 at 7. As Judge Friedrich recently
emphasized, Plaintiffs requests involve only reports that she made to law
enforcement and not, for example, "information about Bulger's
whereabouts." ECF No. 65 at 5. Thus, as noted, the use of her name to
organize the searches was sufficient under the statute. Defendant is
correct that Plaintiff "is simply being revisionist in arguing that the FOIA
request was broader in scope than a request for records relating to
reports that she allegedly made to a specific Assistant United States
Attorney in the USAO-CT on specific topics." ECF No. 59 at 3.

34a

supplement its declaration to fill [the] gap in its
demonstration of the adequacy of its search, either by
searching AUSA Sullivan's email or by explaining why
such a search is unnecessary." ECF No. 41 at 12 (quoting
Disceuolo. 2018 U.S. Dist. LEXIS 9302. 2018 WL 504655.
at *12). Defendant has now done so, searching AUSA
Sullivan's emails, including archived emails back to 2010.
ECF No. 43-2, ff 8-9; ECF No. 59-2, ff 4-6. Plaintiff
complains that the search was inadequate unless the
searched emails "reached back to the year 2000." ECF No.
45-1 at 21. But both Ms. Biega and ASUA Sullivan describe
searches of two archival email databases, one of which
contains the "email communications that were created
prior to March 1, 2015," and reached back more than eight
years, to 2010. ECF No. f 59-2, ff 5-6; see also ECF No.
43-2, f f 8-9. The reasonable interpretation is that those
databases contained the emails reasonably accessible to
USAO-CT. "The agency need not search every record in
the system or conduct a perfect search. Nor need the
agency produce a document where 'the agency is no longer
in possession of the document^ for a reason that is not
itself suspect."' Elec. Privacy Info. Ctr. v. Pep't, of Homeland
Sec., 384 F. Sudd. 2d 100. 107 (D.D.C. 2005) (alteration in
original) (internal citations omitted) (quoting SafeCard.
Servs.. 926 F.2d at 1201). In addition, in light of the fact
that USAO-CT was ordered to search AUSA Sullivan's
email based primarily on the likelihood that Plaintiff had
communicated with him by email, Discevolo. 2018 U.S.
Dist. LEXIS 9302. 2018 WL 504655. at *12. Plaintiff has
undercut her argument that a search of emails from the
year 2000 would be likely to turn up relevant documents
by admitting (for the first time in her opposition to
Defendant's renewed motion for summary judgment) that

35a

her "reports" to AUSA Sullivan "were made . . . over the
telephone, not email." ECF No. 45-1 at 31.
Many of Plaintiffs remaining objections to the adequacy of
the search have already been decided. For example,
Plaintiff complains that AUSA Sullivan did not search his
paper or electronic files, protests that court filings were
excluded from the search, and challenges Ms. Biega's
queries of Case View. ECF NO. 45-1 at 11-12, 22-32; ECF
NO. 62 at 2-3. However, the January 19 Report and
Recommendation, which Judge Friedrich adopted in her
May 8 Memorandum Opinion, found that USAO-CT's
original search comported with the requirements of FOIA
"with one exception": USAO-CT needed to search AUSA
Sullivan's email or explain why that was unnecessary.
Discenolo. 2018 U.S. Dist. LEXIS 9302. 2018 WL 504655.
at *11-12. Moreover, searches of AUSA Sullivan's paper or
electronic files would not be reasonably likely to yield
relevant documents because those files are all case-related,
and USAO-CT did not handle any case or investigation
involving Plaintiff, Mr. Bulger, or criminal activities in
South Boston. ECF No. 43-2, ^ 10.
Plaintiff also complains that USAO-CT's searches were
"limited to investigative materials within the jurisdiction
of Connecticut only," noting that she "resided in a different
jurisdiction"—Massachusetts—"at the time of making the
reports to [AUSA] Sullivan." (ECF No. 45-1 n.3; ECF No.
62 at 10). There is no reason to believe, however, that
USAO-CT had reasonable access to documents from
USAO-MA (the only other jurisdiction with any possible
connection to Plaintiffs requests). Nor has Plaintiff
explained on what basis USAO-CT should be required to
search another jurisdiction's files for materials responsive

36a

to a request she herself directed to USAO-CT. In any case,
the Court already determined that the searches performed
in response to her requests to USAO-MA (the only other
jurisdiction with any possible connection to Plaintiffs
requests) were sufficient. Discenolo. 2018 U.S. Dist. LEXIS
9302. 2018 WL 504655. at *10-11. Those searches, like the
searches that USAO-CT engaged in, "focused on
information about Plaintiff' and also "beganQ with
variations of Plaintiff’s first and last names." Id. Thus,
there is no reason to believe that, assuming USAOCT had
reasonable access to materials from USAO-MA, any
searches it performed using Plaintiffs name would garner
more results than did USAO-MA's searches.
Finally, Plaintiff asserts that the searches cannot have
been adequate because they were limited to "systems of
records," a term that has a specific meaning under the
Privacy Act. 5 U.S.C. $ 552a(a)(5). denoting"group [s] of any
records under the control of any agency from which
information is retrieved by the name of the individual or by
some identifying number, symbol, or other identifying
particular assigned to the individual." According to
Plaintiff, searching only "systems of records" is inadequate
because "[u]nder FOIA . . . , [she] is entitled to a search of
all files or locations without reference to how the records
are grouped or indexed." ECF No. 45-1 at 17; see also id. at
33-36. This argument, too, was resolved against Plaintiff in
connection with Defendant's original motion for summary
judgment:
[Defendant's]
declarations
repeatedly
indicate
Defendant responded to the requests pursuant to
FOIA. More importantly, neither USAO-CT nor USAOMA actually limited its search only to "systems of

37a

records" as defined by the Privacy Act. Rather, USAOCT searched paper files and also questioned AUSA
Sullivan; USAOMA combed through boxes of hard files
as well as questioning members of the prosecution
team. Finally, the limitation to searches for Plaintiff's
name, as explained above, was not imposed because
Defendant performed searches only pursuant to the
Privacy Act, but rather followed logically from the
particular requests Plaintiff submitted.
Discepolo. 2018 U.S. Dist. LEXIS 9302. 2018 WL 504655.
at *12 (internal citations to record omitted). The same is
true here. Moreover, to the extent Defendant limited its
searches, it did so based upon the specific directions
provided by the Court—that is, to search of AUSA
Sullivan's email based on Plaintiffs name. It is thus
irrelevant whether the email and archives searched are
considered "systems of records" or not.
Therefore, the undersigned recommends finding that the
supplemental searches performed by USAO-CT complied
with the requirements of FOIA.
3. Other Objections
Plaintiff argues that the fact that Defendant assigned her
requests to its "complex track" for processing, thus
providing it more time to respond to the requests, and yet
produced no records "justifi[es] [an] inference Q that the
agency used th[e] extended time to consult with other
agencies, offices or sub-components of the Department of
Justice." ECF No. 45-1 at 33; see also ECF No. 62 at 16.
Because "none of the declarations filed in the case give any
detail as to any consultations that took place in this
particular case," she asserts that Defendant's motion for

38a

summary judgment must be denied. ECF No. 45-1 at 33.
The Supplemental Luczynski Declaration asserts that
EOUSA did not consult with any other office or agency
regarding Plaintiffs requests. ECF No. 59-3, f 9. Plaintiffs
hunch that consultation occurred does not undermine this
assertion. See, e.g., SafeCord Servs.. 926 F.2d at 1200
("[Agency declarations] are accorded a presumption of good
faith, which cannot be rebutted by 'purely speculative
claims about the existence and discoverability of
other documents.'" (quoting Ground. Saucer Watch, 692
F.2d, at 771)). More importantly, Plaintiff has not explained
how a more detailed declaration regarding any
consultations with other agencies could bear on the
question of whether USAO-CT's search of AUSA Sullivan's
email was sufficient under the statute.
Plaintiff also hypothesizes that Defendant did not search
"for any records it pre-determined would either be exempt
or excludable under FOIA" or that it is withholding records
subject to a FOIA exclusion. ECF No. 45-1 at 36-38. As
noted, the Supplemental Luczynski Declaration explicitly
denies the former speculation, stating that EOUSA did not
use any exemption or exclusion to limit its interpretation
Plaintiffs requests or USAO-CT's search for records. ECF
No. 59-3, ft 7-8. Moreover, the Supplemental Biega
Declaration asserts that the searches of AUSA Sullivan's
email "yielded no records." ECF No. 59-2, ff 4-6.
Defendant has thus adequately shown that no records are
being withheld pursuant to a FOIA exemption.
4. Conclusion
As noted, a search under FOIA need not be perfect; it need
only be reasonable. SafeCard Servs.. 926 F.2d at 1201.

39a

Moreover, because "[t]he process of conducting an adequate
search for documents requires 'both systemic and casespecific exercises of discretion and administrative
judgment and expertise'" it is "hardly an area in which the
courts should attempt to micromanage the executive
branch." McKinley v. Bd. of Governors of the Fed. Reserve
Svs., 849 F. Sudd. 2d 47. 56 (D.D.C. 2012) (quoting
Schrecker v. Dep't of Justice, 349 F.3d 657, 662. 358 U.S.
Add. D.C. 334 (D.C. Cir. 2003)). Here, the Court previously
found that the searches performed by USAO-CT in
response to Plaintiffs requests were sufficient under the
statute "with one exception," which related exclusively to
the failure to search AUSA Sullivan's email. Discepolo,
2018 U.S. Disl. LEXIS 9302. 2018 WL 504655. at *11-12.
Because Defendant has now done so and presented
"reasonably detailed affidavit[s], setting forth the search
terms and the type of search performed, and averring that
all files likely to contain responsive materials (if such
records exist) were searched," Valencia-Lucena. 180 F.3d
321. 326. 336 U.S. Add. D.C. 386 (D.C. Cir. 1999). the
undersigned recommends granting its motion for summary
judgment.

C. Plaintiffs Cross-Motion for Summary Judgment
Plaintiff moves for summary judgment on two of
Defendant's affirmative defenses raised in its answer. The
first is that this Court lacks subject matter jurisdiction
because Defendant "has not improperly withheld
information within the meaning of FOIA"; the second is
that Plaintiffs requests "implicate certain information that
is protected from disclosure by one or more statutory
exemptions." ECF No. 45-1 at 41-43. Because the

40a

undersigned recommends granting Defendant's renewed
motion for summary judgment, which would end the case,
Plaintiffs motion for summary judgment may be denied as
moot.
III. CONCLUSION
For
the
foregoing
reasons,
the
undersigned
RECOMMENDS that Defendant's renewed motion for
summary judgment (ECF No. 43) be GRANTED,
Plaintiffs cross-motion for summary judgment (ECF No.
45) be DENIED AS MOOT, and the case be CLOSED.
****

The parties are hereby advised that under the provisions
of Local Rule 72.3(b) of the United States District Court for
the District of Columbia, any party who objects to the
Report and Recommendation must file a written objection
thereto with the Clerk of this Court within 14 days of the
party's receipt of this Report and Recommendation. The
written objections must specifically identify the portion of
the report and/or recommendation to which objection is
made, and the basis for such objections. The parties are
further advised that failure to file timely objections to the
findings and recommendations set forth in this report may
waive their right of appeal from an order of the District
Court that adopts such findings and recommendation. See
Thomas u. Am. 474 U.S. 140. 106 S. Ct. 466. 88 L. Ed. 2d
435 (1985).
Date: November 15, 2018
/s/ G. Michael Harvey

41a

G. MICHAEL HARVEY
UNITED STATES MAGISTRATE JUDGE

\

f

42a

APPENDIX D
THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
No. 16-cv-2351 (DLF/GMH)
Sara Discepolo,
Appellant,
v.
United States Department of Justice
Appellee.
On Motion for Reconsideration
Memorandum Opinion and Order
November 2, 2018

Before: DABNEY L. FRIEDRICH, United States District
Judge

43a

MEMORANDUM OPINION AND ORDER
Before the Court is plaintiff Sara Discepolo's Motion for
Reconsideration, Dkt. 48. For the reasons that follow, the
Court will deny the motion.
I. BACKGROUND
The Court assumes the parties' familiarity with the facts
and provides only a brief outline of the relevant history.
Sara Discepolo made three requests under the Freedom of
Information Act (FOIA), 5 U.S.C. $ 552 et sea., for
documents from the U.S. Attorney's Office for the District
of Massachusetts (USAO-MA) and the U.S. Attorney's
Office for the District of Connecticut (USAO-CT). Discepolo
Decl. exs. A & B, at 7-9, Dkt. 18-4. Discepolo requested that
USAO-MA produce (1) documents related to "[a]ny
criminal investigation of [Discepolo] from January 1, 2000
through December 31, 2000 or until said investigation
terminated"; (2) documents containing any "mention of
[Discepolo's] name in any criminal investigation of any
other person from January 1, 2000 through December 31,
2000 or until said investigation terminated"; (3) documents
with "[information reflecting that [Discepolo] was the
subject or the target of any criminal activities occurring
anytime from January 1, 2000 through December 31,
2000"; and (4) documents related to Discepolo's "report in
August 2000 of having seen Whitey Bulger in person." Id.
ex. A, at 7. She also requested that USAO-MA produce all
documents related to "[a]ny criminal investigation of
[Discepolo] (or the mention of [Discepolo's] name in any
criminal investigation of any other person) from January
1, 2012 through the present." Id. ex. A, at 9. And she

44a

requested that USAO-CT produce "all documents in
[USAO-CT's] possession relating in any way" (1) to
Discepolo's "report to Assistant United States Attorney
David X. Sullivan in August of 2000 that [Discepolo] was
the target of criminal activities in South Boston,
Massachusetts"; and (2) to Discepolo's "report to Assistant
United States Attorney David X. Sullivan sometime in
August of 2000 that [Discepolo] had seen Whitey Bulger in
person in South Boston, Newton, or the Greater Boston
area." Id. ex. B, at 12.
On January 19, 2018, Magistrate Judge Harvey issued a
Report and Recommendation that granted in part and
denied in part the government's motion for summary
judgment. R & R at 26-27, Dkt. 33. Judge Harvey
considered declarations provided by Elisha Biega and
Susan Husted—two government employees who personally
conducted or oversaw searches conducted in 2017—and he
concluded that the government performed adequate
searches for almost all of the requested information. Id. at
14-17; see also Biega Decl., Dkt. 16-2; Husted Decl., Dkt.
16-3. He denied summary judgment only as to USAO-CT's
search for information about the reports Discepolo made to
Sullivan. R & R at 22. He recommended that USAO-CT
"supplement its declaration to fill [a] gap in its
demonstration of the adequacy of its search, either by
searching Sullivan's email or by explaining why such a
search is unnecessary." Id. On May 8, 2018, this Court
adopted Judge Harvey's Report and Recommendation in its
entirety. Mem. Op. & Order, Dkt. 41.
The government immediately searched Sullivan's email
account and again moved for summary judgment before
Judge Harvey. See Dkt. 43. In support of its motion, the

45a

government submitted a declaration by Sullivan that
explained that several searches of his email account
"yielded no responsive records." Sullivan Decl. jf|f 8, 9,
Dkt. 43*2. The declaration also stated that Sullivan had
searched for responsive records in May of 2015 and that he
"d[id] not recall how [he] conducted that search but [his]
signature is on [an attached] form . . .* that indicates [he]
had no responsive records." Id. |f 6. Discepolo now argues,
among other things, that the attached form constitutes
new evidence that requires the Court to reconsider its
decision. Pl.'s Mot. for Recons, at 2-3.

II. LEGAL STANDARD
Under Federal Rule of Civil Procedure 54(b), a court may
revise any non-final order "at any time before the entry of
a judgment adjudicating all the claims and all the parties'
rights and liabilities." But although "[m]otions to
reconsider interlocutory orders ... are within the discretion
of the trial court," Lewis v. United States. 290 F. Sudd. 2d,
1, 3 (D.D.C. 2003). the Supreme Court has warned that
"courts should be loathe" to revisit prior decisions "in the
absence of extraordinary circumstances such as where the
initial decision was clearly erroneous and would work a
manifest injustice." Christianson u. Colt Indus. Operating
Coro.. 486 U.S. 800. 817. 108 S. Ct. 2166. 100 L. Ed. 2d 811
(1988) (internal quotation marks omitted). "A motion for
reconsideration is not an opportunity to reargue facts and
theories upon which a court has already ruled, nor is it a
vehicle for presenting theories or arguments that could
have been advanced earlier." Neslev v. FBI. 825 F. Sudd.
2d 58. 62 (D.D.C. 2011). "The burden is on the moving party
to show that reconsideration is appropriate and that harm

46a

or injustice would result if reconsideration were denied."
Lewis v. Gov’t District of Columbia, 324 F.R.D. 296. 300
(D.D.C. 2018) (internal quotation marks omitted); see also
United States ex rel. Westrick v. Second Chance Body
Armor. Inc., 893 F. Supp. 2d- 258. 268 (D.D.C. 2012). To
prevail, the moving party must show: "(1) an intervening
change in the law; (2) the discovery of new evidence not
previously available; or (3) a clear error of law in the first
order." In re Guantanamo Detainee Litis'., 706 F. Sudd. 2d120, 122-23 (D.D.C. 2010) (internal quotation marks
omitted).

III. ANALYSIS

A. The 2015 Form
Discepolo argues that the 2015 form with Sullivan's
signature constitutes new evidence that bears on the
adequacy of the 2017 searches, see Pl.'s Mot. for Recons, at
3-4, but the Court disagrees. The form refers to a specific
2015 search by Sullivan, see Sullivan Decl. ex. B, at 7-8,
that Judge Harvey never even considered. Judge Harvey
determined that the separate and more recent searches
conducted and supervised by Biega and Husted were
adequate based on the declarations submitted by Biega and
Husted. R & R at 14-17. Because the form is irrelevant to
the analyses of both Judge Harvey and this Court,
Discepolo has not satisfied her burden of showing "that
harm or injustice would result if reconsideration were
denied." Lewis, 324 F.R.D. at 300 (internal quotation
marks omitted).

47a

B. The Adequacy of the USAO-MA Search
Discepolo unpersuasively attempts to relitigate several
arguments that this Court has already considered and
rejected about the adequacy of the USAO-MA search and
the decision not to search the records of a certain joint
fugitive task force. Pl.'s Mot. for Recons, at 4-7. She argues
that it was unreasonable for the agency to focus on caserelated records instead of searching the records of the task
force, and she contends that the Court did not address the
"inference" that "relevant materials were likely to be
located in the fugitive task force materials." Id. at 5. But
an agency is not required to search every location that
could conceivably house a responsive document. See
Oglesby u. U.S. Den't of the Army. 920 F. 2d 57. 68, 287 U.S.
Add. D.C. 126 (D.C. Cir. 1990): Meeropol v. Meese, 790 F. 2d
942. 952-53. 252 U.S. Add. D.C. 381 (D.C. Cir. 1986). To
obtain summary judgment, it need only make a "good faith
effort to conduct a search for the requested records, using
methods which can be reasonably expected to produce the
information requested." Oglesby, 920 F.2d at 68. Here, the
government satisfied its obligation for the reasons
discussed by Judge Harvey and this Court. See Mem. Op.
& Order at 9-12.
Discepolo accuses the Court of impermissibly "shift[ing]
the burden to [Discepolo] without permitting any discovery
to be taken." Pl.'s Mot. for Recons, at 7. But in a FOIA case,
summary judgment is only inappropriate "if a review of the
record raises substantial doubt as to the search's adequacy,
particularly in view of well defined requests and positive
indications of overlooked materials." Reporters Comm., for
Freedom of Press v. FBI. 877 F.3d 399. 402 (D.C. Cir. 2017)

48a

(internal quotation marks omitted). The Court found no
"substantial doubt" here, and Discepolo is not entitled to
reargue facts and theories upon which the Court has
already ruled in a motion for reconsideration, see Stati v.
Rep. ofKaz.. 302F. Sudd. 3d 187. 197(D.D.C. 2018).
The Court also rejects Discepolo's argument that the Court
adopted an unduly "narrow construction" of one of her
requests of USAO-MA. PL's Mot. for Recons, at 6. Discepolo
argues that "records showing Bulger was in Boston during
the time in question" are responsive to her request for
documents "in any way related" to her reports of sighting
Bulger. Id. But the Court has already explained that
"documents showing that Bulger was in Boston are not
related to [Discepolo's] FOIA requests here, which involve
[her] reports of sighting Bulger, not all information about
Bulger's whereabouts." Mem. Op. & Order at 10 n.l.

C. Discepolo's Remaining Arguments
Discepolo's final arguments are equally unconvincing.
First, she argues that Judge Harvey and this Court failed
to address her objection that Husted's declaration was
"facially deficient as a matter of law because the averment
was defective." Pl.'s Mot. for Recons, at 7; see also Pl.'s
Objections at 10-11, Dkt. 36. As the Court explained in its
Memorandum Opinion and Order, however, "Judge Harvey
determined that the declaration was not facially defective,
after which he properly considered it." Mem. Op. & Order
at 9. Second, Discepolo argues that she is entitled to relief
under Federal Rule of Civil Procedure 60(b). Pl.'s Mot. for
Recons, at 7. But this motion is properly decided under
Rule 54 because Discepolo seeks reconsideration of an

49a

interlocutory order rather than a final judgment. Fed. R.
Civ. P. 54(a): Lewis v. U.S. Dev't of Justice. 867 F. Sum).
2d, 1, 23 (D.D.C. 2011); Elec. Privacy Info. Ctr. v. U.S. Dep't
of Homeland Sec., 811 F. Sudd. 2d 216, 225 (D.D.C. 2011):
see also Fed. R. Civ. P. 60(b) (permitting courts to "relieve
a party . . . from a final judgment, order, or proceeding"
(emphasis added)).

CONCLUSION
For the foregoing reasons, it is ORDERED that Sara
Discepolo's Motion for Reconsideration is DENIED.
Is/ Dabney L. Friedrich
DABNEY L. FRIEDRICH
United States District Judge
November 2, 2018

50a

APPENDIX E
THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
No. 16-cv-2351 (DLF/GMH)
Sara Discepolo,
Appellant,
v.
United States Department of Justice
Appellee.
On Summary Judgment I
Memorandum Opinion and Order
May 8, 2018

Before: DABNEY L. FRIEDRICH, United States District
Judge

51a

MEMORANDUM OPINION AND ORDER
ADOPTING REPORT AND RECOMMENDATION
OF MAGISTRATE JUDGE
Before the Court are the defendant's Motion for Summary
Judgment, Dkt. 16, the plaintiffs Cross-Motion for
Summary Judgment, Dkt. 18, and the plaintiffs Motion for
Reconsideration, Dkt. 26. On January 19, 2018, Magistrate
Judge G. Michael Harvey issued a Report and
Recommendation, Dkt. 33, to which the plaintiff filed
numerous objections, Dkt. 36. For the reasons that follow,,
the Court will adopt Judge Harvey's Report and
Recommendation in its entirety. Thus the Court will grant
in part and deny in part the defendant's Motion for
Summary Judgment, deny without prejudice the plaintiffs
Cross-Motion for Summary Judgment, and deny the
plaintiffs Motion for Reconsideration.

I. BACKGROUND
Pursuant to the Freedom of Information Act, 5 U.S.C. §
552, and the Privacy Act, 5 U.S.C. ft 552a (collectively,
FOIA), the plaintiff Sara Discepolo seeks information from
the U.S. Department of Justice. Judge Harvey's Report and
Recommendation provides a thorough summary of the
facts of this case. See Dkt. 33 at 2-7. In brief, at issue are
two FOIA requests submitted by the plaintiff to the U.S.
Attorney's Office for the District of Massachusetts (USAOMA) and one FOIA request submitted by the plaintiff to the
U.S. Attorney's Office for the District of Connecticut
(USAO-CT) on April 17, 2017. Id. at 2-3.

52a

First, the plaintiff requested that USAO-MA produce all
documents related to (1) "[a]ny criminal investigation of
[the plaintiff] from January 1, 2000 through December 31,
2000 or until said investigation terminated"; (2) any
"mention of [the plaintiffs] name in any criminal
investigation of any other person from January 1, 2000
through December 31, 2000 or until said investigation
terminated"; (3) "[information reflecting that [the
plaintiff] was the subject or the target of any criminal
activities occurring from anytime from January 1, 2000
through December 31, 2000"; and (4) the plaintiffs "report
in August 2000 of having seen Whitey Bulger in person."
Dkt. 18-4 at 7.
Second, the plaintiff requested that USAO-MA produce all
documents related to "[a]ny criminal investigation of [the
plaintiff] (or the mention of [the plaintiffs] name in any
criminal investigation of any other person) from January
1, 2012 through the present." Dkt. 18-4 at 9.
Third, the plaintiff requested that USAO-CT produce
information related to her communications with an
Assistant United States Attorney, David X. Sullivan. The
plaintiff requested "all documents in [USAO-CT's]
possession relating in any way" to (1) the plaintiffs "report
to Assistant United States Attorney David X. Sullivan in
August of 2000 that [the plaintiff] was the target of
criminal activities in South Boston, Massachusetts"; and
(2) the plaintiffs "report to Assistant United States
Attorney David X. Sullivan sometime in August of 2000
that [the plaintiff] had seen Whitey Bulger in person in
South Boston, Newton, or the Greater Boston area." Dkt.
18-4 at 12.

53a

The plaintiff filed her complaint on November 28, 2016.
Dkt. 1. In summer 2017, the parties filed cross-motions for
summary judgment. See Dkt. 16; Dkt. 18. Pursuant to
Local Civil Rules 72.2 and 72.3, the previously assigned
district court judge referred the case to a magistrate judge
for full case management, up to but excluding trial,
including recommendations on dispositive motions. See
Minute Order of July 17, 2017. Magistrate Judge Harvey
was randomly assigned. See Referral of July 17, 2017. He
issued a Report and Recommendation on January 19, 2018.
Dkt. 33. Pursuant to Local Civil Rule 72.3(b), the plaintiff
filed objections to the Report and Recommendation, see
Dkt. 36, to which the Court now turns.

II. LEGAL STANDARDS
Under Local Civil Rule 72.3(b), "[a]ny party may file for
consideration by the district judge written objections to the
magistrate
judge's
proposed
findings
and
recommendations issued under [Local Civil Rule 72.3(a)]
within 14 days." Local Civ. R. 72.3(b). Proper objections
"shall specifically identify the portions of the proposed
findings and recommendations to which objection is made
and the basis for the objection." Id. Pursuant to Local Civil
Rule 72.3(c), "a district judge shall make a de novo
determination of those portions of a magistrate judge's
findings and recommendations to which objection is made
as provided in [Rule 72.3(b)]." Local Civ. R. 72.3(c); see also
Means u. District of Columbia. 999 F. Sudd. 2d 128. 132
(D.D.C. 2013) ("District courts must apply a de novo
standard of review when considering objections to, or
adoption of, a magistrate judge's Report and
Recommendation."). But "objections which merely rehash

54a

an argument presented and considered by the magistrate
judge are not properly objected to and are therefore not
entitled to de novo review." Hall v. Den't of Commerce, No.
16-cv-1619. 2018 U.S. Dist. LEXIS 72110. 2018 WL
2002483, at *2 (D.D.C. Apr. 30. 2018): see also Shurtleff v.
EPA, 991F. Sudd. 2d 1, 8 (D.D.C. 2013). The district judge
"may accept, reject, or modify, in whole or in part, the
findings and recommendations of the magistrate judge, or
may recommit the matter to the magistrate judge with
instructions." Local Civ. R. 72.3(c).
In accordance with Local Civil Rule 72.3, the Court must
assess the parties' summary judgment motions and the
plaintiffs motion for reconsideration. As Judge Harvey
explained, FOIA cases are generally resolved on motions
for summary judgment. See Bray tori v. Off, of the U.S.
Trade Reo.. 641F.3d.52L 527. 395 U.S. Add. D.C. 155(D.C.
Cir. 2011). The agency has the burden of justifying its
response to the FOIA request it received, and the federal
court reviews the agency's response de novo. 5 U.S.C.
552(a). "To prevail on summary judgment, an agency must
show that it made a good faith effort to conduct a search for
the requested records, using methods which can be
reasonably expected to produce the information requested,
which it can do by submitting [a] reasonably detailed
affidavit, setting forth the search terms and the type of
search performed, and averring that all files likely to
contain responsive materials (if such records exist) were
searched." Reporters Comm, for Freedom, of Press v. FBI,
877 F.3d 399, 402 (D.C. Cir. 2017) (internal quotation
marks omitted). Such affidavits or declarations "are
accorded a presumption of good faith, which cannot be
rebutted by 'purely speculative claims about the existence

55a

and discoverability of other documents.'" SafeCard, Sens.,
Inc. v. SEC. 926 F.2d 1197. 1200. 288 U.S. Add. D.C. 324
(D.C. Cir, 1991) (internal quotation marks omitted). And
although "an affidavit must explain in reasonable detail
the scope and method of the search conducted," it "need not
set forth with meticulous documentation the details of an
epic search for the requested records." Reporters Comm...
877 F.3d at 404 (internal quotation marks omitted). In
addition, a defendant may seek summary judgment based
on searches performed after the inception of litigation in
federal court. See, e.g., Ray v. Fed. Bureau of Prisons. 811
F. Sudd. 2d 245. 247-48. 250 (D.D.C. 2011).
More generally, under Rule 56, a court grants summary
judgment if the moving party "shows that there is no
genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law." Fed. R. Civ. P.
56(a); see also Anderson v. Liberty Lobby. Inc., 477 U.S.
242. 247-48. 106 S. Ct. 2505. 91 L. Ed. 2d 202 (1986). A
"material" fact is one with potential to change the
substantive outcome of the litigation. See Liberty Lobby,
477 U.S. at 248; Holcomb v. Powell. 433 F.3cl 889. 895. 369
U.S. Add. D.C. 122 (D.C. Cir. 2006). A dispute is "genuine"
if a reasonable jury could determine that the evidence
warrants a verdict for the nonmoving party. See Liberty
Lobby. 477 U.S. at 248: Holcomb. 433 F.3d at 895. "If there
ai'e no genuine issues of material fact, the moving party is
entitled to judgment as a matter of law if the nonmoving
party 'fails to make a showing sufficient to establish the
existence of an element essential to that party's case, and
on which that party will bear the burden of proof at trial.'"
Holcomb. 433 F.3d at 895 (quoting Celotex Coro, v. Catrett,
477 U.S. 317. 322. 106 S. Ct. 2548. 91 L. Ed. 2d 265 (1986)).

56a

Finally, Rule 54(b) "governs reconsideration of orders that
do not constitute final judgments." Singh v. George Wash.
Univ., 383 F. Sum. 2d 99, 101 (D.D.C. 2005): see also Fed.
R. Civ. P. 54(h) (providing that "any order or other decision,
however designated, that adjudicates fewer than all the
claims ... does not end the action as to any of the claims or
parties and may be revised at any time before the entry of
a judgment adjudicating all the claims
"). Rule 54(b)
"recognizes" the district court's "inherent power to
reconsider an interlocutory order 'as justice requires.'"
Capitol Sprinkler Inspection, Inc, v. Guest Servs., Inc., 630
F.3d 217. 227. 394 U.S. Aoo. D.C. 73 (D.C. Cir. 2011)
(citation omitted). "Justice may require revision when the
Court has patently misunderstood a party, has made a
decision outside the adversarial issues presented to the
Court by the parties, has made an error not of reasoning
but of apprehension, or where a controlling or significant
change in the law or facts has occurred since the
submission of the issue to the Court." Singh, 383 F. Supp.
2d at 101 (citation and alteration omitted). "In general, a
court will grant a motion for reconsideration of an
interlocutory order only when the movant demonstrates:
(1) an intervening change in the law; (2) the discovery of
new evidence not previously available; or (3) a clear error
in the first order." Parker v. John Moriartv & Assocs., 221
F. Supp. 3d 1. 2016 WL 7438435. at *1 (D.D.C. 2016)
(citation omitted). "[I]ri order to promote finality and
protect the court's judicial resources, the court is loath to
revisit its prior decision
absent extraordinary
circumstances such as where the initial decision was
clearly erroneous and would work a manifest injustice."
Hall & Assocs. v. EPA, 210 F. Supp. 3d 13. 2016 WL
5396653. at *3 (D.D.C. Sep. 27. 2016) (citation omitted).

57a

III. ANALYSIS
In
response
to
Judge
Harvey's
Report
and
Recommendation, the plaintiff raises eight objections,
many with numerous subparts. The Court addresses each
in turn.

A. Objection to Referral
The plaintiff objects that this case was referred to a
magistrate judge and that Judge Harvey issued a report
and recommendation on the parties' summary judgment
motions. See Dkt. 36 at 1-2. Such actions, however, are
expressly permitted by federal law and the local civil rules.
See 28 U.S.C. $ 636: Local Civ. R. 72.1; Local Civ. R. 72.2;
Local Civ. R. 72.3.

B. Objection to Recommendation that the Court
Grant Summary Judgment as to USAO-MA
The plaintiff objects that Judge Harvey erred by not
deeming as admitted the plaintiffs statements that
responsive documents exist. See Dtk. 36 at 2-3. But Judge
Harvey's Report and Recommendation persuasively
explains that the defendant did not make critical
admissions by (1) not responding to certain requests for
admissions or (2) asserting in its answer that it lacked
sufficient knowledge to admit or deny certain allegations.
See Dkt. 33 at 13-14. The plaintiff also objects that Judge
Harvey erred by stating that the district court judge
previously assigned to this case issued a protective order

58a

that "had the effect of withdrawing [any purported]
admissions pursuant to Rule 36(b) of the Federal Rules of
Civil Procedure." Dkt. 33 at 13 n.6. Not only has the
plaintiff already raised this argument unsuccessfully, see
Dkt. 13 at 6-7; Dkt. 33 at 33, but Rule 36(b) expressly
permits the action taken by the judge previously assigned
to this case. See Fed. R. Civ. P. 36(b) ("A matter admitted
under this rule is conclusively established unless the court,
on motion, permits the admission to be withdrawn or
amended. Subject to Rule 16(e). the court may permit
withdrawal or amendment if it would promote the
presentation of the merits of the action and if the court is
not persuaded that it would prejudice the requesting party
. in maintaining or defending the action on the merits.").
The plaintiff further objects that Judge Harvey did not
conclude that the agency's pleadings constituted an
admission that responsive records exist because the
appropriate standard is "whether the Defendant made
reasonable inquiry by the time the Answer was filed." Dkt.
36 at 4. This argument was already raised before Judge
Harvey, who persuasively rejected it. See Dkt. 33 at 13-14.
Moreover, it is common for an agency to continue searching
for the requested documents after a complaint has been
filed, see, e.g., Ray. 81 IF. Sudd. 2d at 247-48. 250. and such
searches do not amount to a critical admission. Therefore,
this objection fails.

C. Objection to Consideration of the Husted and
Luczynski Declarations
The plaintiff objects that Judge Harvey improperly
considered the declaration of Susanne Husted, the FOIA

59a

coordinator for USAO-MA, because Husted did not
personally conduct parts of the searches and Husted made
her statement based in part on "information and belief."
See Dkt. 36 at 5-7. Again, this argument was thoroughly
analyzed and rejected by Judge Harvey. See Dkt. 33 at 1418. In a FOIA case, it is appropriate to consider the
declaration of a person who conducted the search or a
person who supervised the search. Id. at 15 (collecting
cases). Husted permissibly did both. Id. at 14-17. And it
was permissible for Husted to submit a declaration with an
affirmation that it was "true and correct, to the best [of her]
knowledge and belief." Dkt. 18-1 at 25; Dkt. 16-3 at 7. Such
an affirmation is appropriate for a FOIA case. See Dkt. 33
at 17. Therefore, Judge Harvey properly considered
Husted's declaration.
The plaintiff also objects that Judge Harvey improperly
considered the declaration of David Luczynski, an
attorney-advisor for the FOIA unit of the Executive Office
for United States Attorneys. See Dkt. 36 at 7-10. This
argument "merely rehash[es]" issues already addressed by
Judge Harvey. Shurtleff. 991 F. Sudd. 2d at 8. According to
the defendant, the declaration "was provided (i) to counter
[the plaintiffs] speculation that the Executive Office for the
United States Attorneys might have instructed the two
United States Attorney's offices to conduct their searches
in any particular way and (ii) to explain that no records
were processed because no records were found." Def.'s
Response, Dkt. 39 at 2. That is, the declaration "explain[ed]
[the Executive Office's] limited role in FOIA requests sent
to U.S. Attorney's Offices . . .." Dkt. 33 at 17. And contrary
to the plaintiffs objection, the Luczynski declaration
satisfied 28 U.S.C. $ 1746. See Dkt. 33 at 17 n.8. Also

60a

contrary to the plaintiff's objection, see Dkt. 36 at 9, Judge
Harvey did not rely on the declaration to draw conclusions
about the adequacy of USAO-MA's search, see Dkt. 33 at
16 ("[The Executive Office] did not perform or directly
supervise the searches, so a declaration would not be
probative as to the adequacy of those searches."). Indeed,
Judge Harvey's Report and Recommendation cites the
Luczynski declaration substantively only one time—when
explaining that "the former case tracking system [used by
the U.S. Attorney's offices] was migrated to CaseView,
which consequently includes information dating back to
1997." Dkt. 33 at 20. In light of the foregoing, Judge Harvey
properly considered Luczynski's declaration.

t

D. Objection to the Adequacy of the USAO-MA
Search
The plaintiff objects to the adequacy of the USAO-MA
search by raising eleven issues. As a preliminary matter,
because Judge Harvey addressed these issues thoroughly
and persuasively, the issues are "not entitled to de novo
review." Hall 2018 U.S. Dist. LEXIS 72110. 2018 WL
2002483. at *2. Even so, the Court briefly addresses the
issues for the sake of a complete treatment of the plaintiffs
objections.
First, the plaintiff objects that Judge Harvey failed to
determine whether Husted's declaration was facially
defective. See Dkt. 36 at 10-11. As explained above,
however, Judge Harvey determined that the declaration
was not facially defective, after which he properly
considered it. See Dkt. 33 at 14-18.

61a

Second, the plaintiff objects to Judge Harvey's
determination that it was reasonable for USAO-MA to
focus on case-related records and that it was reasonable
that USAO-MA did not identify records related to the
plaintiffs report of a Whitey Bulger sighting. See Dkt. 36
at 11-12. The existence of the joint fugitive task force may
suggest that USAO-MA has records related to the Whitey
Bulger investigation, but it does not establish that USAOMA has records related to the plaintiffs report of a Whitey
Bulger sighting. Even if the plaintiffs reported sighting
was communicated from USAO-CT to USAO-MA as part of
the joint fugitive task force, the report likely would have
been included in the case files, which were searched
extensively. See Dkt. 33 at 21-22. Moreover, the report
remains most likely to be found by USAO-CT, as to which
Judge Harvey recommended that the Court deny summary
judgment and that the Court direct supplemental
affidavits or searches.
Third, the plaintiff again objects that Judge
Harvey considered the Husted declaration, arguing that
Judge Harvey improperly deemed Husted a supervisory
employee. See Dkt. 36 at 12-14. This argument fails
because Husted was a proper FOIA declarant for the
reasons discussed above, see supra Section III.C, and for
the reasons discussed by Judge Harvey, see Dkt. 33 at 1423; see also Dkt. 34 at 1-2.
Fourth, the plaintiff objects to Husted's declaration
because it stated that USAO-MA does not have a file
system to record tips from the public regarding fugitives,
yet USAO-MA displayed maps of Bulger sightings at a
press conference. See Dkt. 36 at 16-17. Contrary to the
plaintiffs argument, these propositions do not necessarily

62a

contradict each other. As a result, they do not establish
that Judge Harvey erred when concluding that USAOMA's search was adequate.
Fifth, sixth, seventh, and eighth, the plaintiff objects in
various ways that USAO-MA's search was improperly
limited in scope. See Dkt. 36 at 14-16, 17-18, 18-19, 19-21.
But the requests to USAO-MA were all related to cases or
investigations. Therefore, it was reasonable for USAO-MA
to perform interviews of Bulger's prosecution team and
conduct searches for case-related files via the CaseView
system, which "includes information about each
investigation pursued by a U.S. Attorney's Office" and "is
the primary way to search for case-related documents."
Dkt. 33 at 21. That is sufficient to comply with FOIA, as
Judge Harvey thoroughly explained. See id. at 20-22; see
also Oslesbv v. U.S. Department of the Army, 920 F.2d 57,
68. 287 U.S. Add. D.C. 126 (D.C. Cir. 1990) ("There is no
requirement that an agency search every record system.").1
Ninth, the plaintiff objects that Judge Harvey did not
adequately determine "the general structure of systems or
files in the two field offices." Dkt. 36 at 21. To the contrary,
based on the submitted declarations, Judge Harvey
analyzed at length the nature of the search systems and
1 The plaintiff attaches a document from the Bulger
prosecution in which Bulger reported travelling to Boston
when he was a fugitive. See Dkt. 36 at 38. The document was
not produced by USAO-MA to the plaintiff, which
demonstrates—according to the plaintiff—that the search was
inadequate. See id. at 20-21. But documents showing that
Bulger was in Boston are not related to the plaintiffs FOIA
requests here, which involve the plaintiffs reports of sighting
Bulger, not all information about Bulger's whereabouts.

63a

locations relevant to this case. The CaseView system, just
to give one example, '"tracks several types of information
including the names of plaintiffs, investigative targets,
defendants, when the investigation was opened, and when
it was closed,' as well as the location of archived
documents." Dkt. 33 at 19 n.9 (quoting Dkt 16-3, | 27). The
system "also includes 'the names of any related cases, what
the case is about, the name of the AUSA(s) handling the
case or matter, the judge assigned to the case, and the
status of the case.'" Id. (quoting Dkt. 16-2, *U 4). Judge
Harvey's treatment of the records systems involved in this
case was a sufficient groundwork for determining that
USAO-MA conducted an adequate search, i.e., a search
"reasonably calculated to uncover all relevant documents."
Ancient Coin Collectors Guild u. U.S. Dev't of State, 641
F.3d 504. 514. 395 U.S. Arm. D.C. 138 (D.C. Cir. 2011)
(internal quotation marks omitted).
Tenth, the plaintiff objects to, in the plaintiffs words,
Judge Hai’vey's "determination that the court is not
required to review whether the agency was using Section
552(c) exceptions." Dkt. 36 at 22. This argument also fails
for the reasons given by Judge Harvey. See Dkt. 33 at 2425 &n.ll.
Eleventh, the plaintiff objects that Judge Harvey accorded
a presumption of good faith to the agency declarations. See
Dkt. 36 at 23-24. But in doing so, Judge Harvey followed
controlling precedent, which directs courts to accord
adequate affidavits and declarations "a presumption of
good faith, which cannot be rebutted by purely speculative
claims about the existence and discoverability of other
documents." SafeCard Servs.. Inc., 926 F.2d at 1200; see

64a

also supra Section III.C. Therefore, the plaintiffs objection
to the adequacy of USAO-MA's search fails.

E. Objection to the Recommended Disposition as to
USAO-CT
Judge Harvey recommended that the Court deny without
prejudice the defendant's motion for summary judgment as
to the FOIA claims against USAO-CT. See Dkt. 33 at 2223. Specifically, Judge Harvey explained that the plaintiff
seeks information regarding reports she may have made to
Assistant U.S. Attorney Sullivan. Id. at 22. Because the
reports were not strictly case-related, searches of the
CaseView system may not have turned up responsive
material, and "Sullivan's email seems a reasonable place to
search for responsive documents." Id. Therefore, Judge
Harvey "recommend[ed] that USAO-CT be instructed to
supplement its declaration to fill this gap in its
demonstration of the adequacy of its search, either by
searching AUSA Sullivan's email or by explaining why
such a search is unnecessary." Id. at 22.
Even though Judge Harvey recommended that the Court
deny defendant's motion for summary judgment as to
USAO-CT, the plaintiff objects on the grounds that the
defendant should not be permitted to supplement its
motion with additional declarations. See Dkt. 36 at 24-27.
Such supplementation, however, is common in FOIA cases,
and it is unobjectionable here, as Judge Harvey explained.
See Dkt. 33 at 22-23; see, e.g., Ancient Coin Collectors
Guild. 641 F.3d at 515: Freedom Watch v. Bureau of Land
Mgmt.. 220 F. Sudd. 3d 65, 70 (D.D.C. 2016): Toensins v.
DOJ, 890 F. Supp. 2d 121,149 (D.D.C. 2012): People for the

65a

Ethical Treatment of Animals, Inc. u. Bureau of Indian
Affairs. 800 F. Sudd. 2d 173. 178 n.2 (D.D.C. 2011).

F. Objection to Denial of Motion to Strike
The plaintiff objects that Judge Harvey exceeded his
authority by denying the plaintiffs motion to strike instead
of recommending a disposition. See Dkt. 36 at 27; see also
Dkt. 20 (plaintiffs motion to strike); Dkt. 34 (memorandum
opinion and order denying the plaintiffs motion to strike).
But the denial was solidly within Judge Harvey's
authority. See Local Civ. R. 72.1(b); Local Civ. R. 72.2(a);
Minute Order of July 17, 2017 (referring case to magistrate
judge for full case management, up to but excluding trial).
The plaintiff also objects that the denial of the motion to
strike improperly determined that no admissions arose
from the defendant's pleadings and improperly considered
the Luczynski declaration. These objections fail for the
reasons discussed above, see supra Sections III.B and III.C,
and for the reasons discussed by Judge Harvey, see Dkt. 33
at 13-18. The plaintiff further objects that Judge Harvey,
when issuing the order denying the motion to strike, failed
to address the plaintiffs request for sanctions for
declarations filed in bad faith. See Dkt. 36 at 28. But Judge
Harvey determined that the defendant had not submitted
filings in bad faith. See Dkt. 20. Therefore, it was wholly
unnecessary for him to address whether sanctions were
warranted.

G. Objection to the Recommended Disposition of
the Motion for Reconsideration

66a

During summary judgment briefing, the plaintiff filed a
motion to take discovery pursuant to Rule 56(d). See Dkt.
25. The previously assigned judge denied the motion as
premature in light of the ongoing summary judgment
briefing. See Minute Order of June 27, 2017 ("In light of the
ongoing summary-judgment briefing in plaintiffs FOIA
action, plaintiffs motion for leave to take discovery is
rdenied as premature. See Murphy v. FBI. 490 F. Sum.
1134. 1136 (D.D.C. 1980) ('Whether the instant case
warrants discovery is a question of fact that can only be
determined after the defendants file their dispositive
motion and accompanying affidavits.')"). The plaintiff then
filed a motion for reconsideration, Dkt. 26, after which the
case was referred to Judge Harvey.
Although the motion for reconsideration was within Judge
Harvey's authority to resolve, see Local Civ. R. 72.2, he
declined to do so because "a motion for reconsideration is
usually decided by the judge who issued the original
decision," Dkt. 33 at 1 n.l. Instead, Judge Harvey
thoroughly analyzed the motion and recommended that it
be denied. See Dkt. 33 at 7-11.
The plaintiff objects to this recommendation, but to no
avail. As a threshold defect, the plaintiff reprises
arguments raised previously, but there is no "good reason"
why, "hav[ing] once battled for the court's decision," the
plaintiff should be "permitted!] to battle for it again." Hall
Assocs.. 210 F. Sudp. 3d 13. 2016 WL 5396653. at *3
(D.D.C. Sep. 27, 2016) (quoting Singh, 383 F. Supp. 2d 99,
101 (D.D.C. 2005)). The plaintiff "asks for a second bite at
the apple, which is precisely what reconsideration of an
order is not designed to provide." United States v. Weaver,

67a

2013 U.S. Dist. LEXIS 195071. 2013 WL 12061612. at *1
(D.D.C. Aue. 7. 2013).
Moreover, the plaintiff does not demonstrate any infirmity
in the Court's order denying the motion to take discovery.
As Judge Harvey pointed out, '"[d]iscovery in FOIA cases
is rare,' in part because agency affidavits are entitled to a
presumption of good faith, 'which cannot be rebutted by
purely speculative claims about the existence and
discoverability of other documents.'" Dkt. 33 at 9 (quoting
Competitive Enter. Inst, v. Off, of Sci. & Tech. Policy. 161
F. Supp. 3d 120, 136 (D.D.C. 2016)). And the circumstances
in this case do not justify departing from the usual course
in FOIA actions. See id. at 9-10. The Court will therefore
deny the motion for reconsideration.

H. Objection to the Recommended Disposition of
the Plaintiffs Cross-Motion for Summary Judgment
Finally, the plaintiff objects to the recommended
disposition of her cross-motion for summary judgment. See
Dkt.
36
at
35-37.
Because
Judge
Harvey
recommended that the Court deny the defendant's motion
for summary judgment as to USAO-CT and that the Court
direct USAO-CT to supplement its declarations or
affidavits, Judge Harvey explained that "it would be
premature to address Plaintiffs motion at this time." Dkt.
33 at 26. Therefore, he "recommend[ed] denying Plaintiffs
motion without prejudice to renewal once Defendant has
submitted its updated affidavit." Id.
The Court agrees. The plaintiffs motion seeks summary
judgment on issues involving the withholding of

68a

information under FOIA. See id. at 25-26. The defendant's
updated declarations or affidavits, however, will address
the issue of FOIA withholding. Thus the updated filings
may modify the legal terrain, and it would be premature
and inefficient to decide the plaintiffs motion for summary
judgment at this time. Therefore, the Court will deny the
plaintiffs motion without prejudice. At the appropriate
time following the defendant's updated filings, the plaintiff
is free to renew her arguments or any other arguments that
may arise.
CONCLUSION
For the foregoing reasons, it is ORDERED that
Magistrate Judge G. Michael Harvey's Report and
Recommendation, Dkt. 33, is ADOPTED in its entirety. It
is further
ORDERED that the defendant's Motion for Summary
Judgment, Dkt. 16, is GRANTED IN PART as to USAOMA and DENIED IN PART as to USAO-CT, that the
plaintiffs Cross-Motion for Summary Judgment, Dkt. 18,
is DENIED WITHOUT PREJUDICE, and that the
plaintiffs Motion for Reconsideration, Dkt. 26, is
DENIED. It is further
ORDERED that the parties shall contact Magistrate
Judge G. Michael Harvey's chambers to determine a
schedule for future proceedings as to the plaintiffs USAOCT FOIA request, in accordance with this opinion and the
adopted Report and Recommendation.
SO ORDERED.

69a

/s/ Dabney L. Friedrich
DABNEY L. FRIEDRICH
United States District Judge
Date: May 8, 2018

70a

APPENDIX F
THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
No. 16-cv-2351 (DLF/GMH)
Sara Discepolo,
Appellant,
v.
United States Department of Justice,
Appellee.
/

On Summary Judgment I
Report and Recommendation
January 19, 2018

Before: G. MICHAEL HARVEY, UNITED STATES
MAGISTRATE JUDGE.

71a

REPORT AND RECOMMENDATION
This matter, brought pursuant to the Freedom of
Information Act, 5 U.S.C. $ 552, and the Privacy Act, 5
U.S.C. §552a (collectively, "FOIA"), has been referred to
the undersigned for full case management. Defendant has
filed a motion for summary judgment and Plaintiff has filed
a cross-motion for summary judgment, both of which are
ripe for adjudication. Also ripe for adjudication is Plaintiffs
motion for reconsideration of a prior discovery order.1
Based on the entire record and the reasons below,2 the
1 The discovery order underlying the motion for reconsideration
was issued by the Honorable Emmet G. Sullivan, United States
District Judge, prior to referral of the case to the undersigned.
The case has now been reassigned to the Honorable Dabney L.
Friedrich, United States District Judge. Although the motion
for reconsideration of that discovery order is technically a nondispositive motion that could be resolved by a United States
Magistrate Judge in an Order rather than a Report and
Recommendation, the undersigned does not do so here because
a motion for reconsideration is usually decided by the judge
who issued the original decision, who, in this case, was Judge
Sullivan. However, in the interest of efficiency, the motion for
reconsideration is addressed here.
Plaintiffs motion to strike the declarations submitted in
support of Defendant's motion for summary judgment is also a
non-dispositive motion that may be resolved by the
undersigned in an Order. It is addressed in a Memorandum
Opinion and Order issued contemporaneously with this Report
and Recommendation.
2 The relevant submissions for the purposes of the motions
addressed here are Plaintiffs Complaint [Dkt. 1]; Defendant's
Answer [Dkt. 5]; Defendant's Motion for Protective Order [Dkt.
11]; Plaintiffs Opposition to Defendant's Motion for Protective
Order [Dkt. 13]; Memorandum in Support of Defendant's
Motion for Summary Judgment [Dkt. 16]; Defendant's

72a

undersigned recommends granting Defendant's Motion for
Summary Judgment in part and denying it in part without
prejudice, denying Plaintiffs Cross-Motion for Summary
Judgment without prejudice, and denying Plaintiffs
Motion for Reconsideration.

BACKGROUND
This case concerns three FOIA requests3 made by Plaintiff
seeking documents concerning criminal investigations in
Statement of Material Facts [Dkt. 16-1]; Declaration of Elisha
Biega dated May 18, 2017, and attachments [Dkt. 16-2];
Declaration of Susanne Husted dated May 18, 2017, and
attachments [Dkt. 16-3]; Memorandum of Points and
Authorities in Support of Plaintiffs Cross-Motion for Summary
Judgment and Opposition to Defendant's Motion for Summary
Judgment [Dkt. 18-1]; Plaintiffs Statement of Material Facts
and Response to Defendant's Statement of Material Facts [Dkt.
18-3]; Declaration of Sara Discepolo dated June 19, 2017, and
attachments [Dkt. 18-4]; Plaintiffs Motion for Reconsideration
[Dkt. 26]; Defendant's Opposition to Plaintiffs Motion for
Reconsideration [Dkt. 28]; Plaintiffs Reply Memorandum re:
Motion for Reconsideration [Dkt. 29]; Reply Memorandum in
Further Support of Defendant's Motion for Summary
Judgment and Opposition to Plaintiffs Cross-Motion for
Summary Judgment [Dkt. 30]; Declaration of David Luczynski
dated July .19, 2017 [Dkt. 30-1]; Defendant's Response to
Plaintiffs Statement of "Additional Facts" [Dkt. 30-2]; and
Reply Memorandum re: Plaintiffs Cross-Motion for Summary
Judgment [Dkt. 32]. Citations to page numbers reflect the
pagination assigned by the Court's Electronic Case Filing
system.
3 Plaintiff objects to the characterization that her requests were
made solely under FOIA, citing DOJ guidelines stating that
requests under FOIA are treated as if they are made pursuant
to both FOIA and the Privacy Act. [Dkt. 18-3, U 1]. She does

73a

which she was mentioned as the target, the victim,
or otherwise, as well as documents related to a report
Plaintiff purportedly made to federal authorities in August
2000 that she had seen James J. "Whitey" Bulger, the
organized crime boss who was prosecuted and convicted by
the U.S. Attorney's Office for the District of Massachusetts
in 2013.

A. Facts
On April 17, 2017, Plaintiff sent two requests to the U.S.
Attorney's Office for the District of Massachusetts ("USAOMA"). One of those asked for all documents related to (1)
"[a]ny criminal investigation of [Plaintiff] from January 1,
2000 through December 31, 2000 or until said investigation
terminated"; (2) any "mention of [Plaintiffs] name in any
criminal investigation of any other person from January 1,
2000 through December 31, 2000 or until said investigation
terminated"; (3) "[information reflecting that [Plaintiff]
was the subject or the target of any criminal activities
occurring from anytime from January 1, 2000 through
December 31, 2000"; and (4) Plaintiffs "report in August
2000 of having seen Whitey Bulger in person." [Dkt. 18-4
at 7]. The other request asked for documents related to
"[a]ny criminal investigation of [Plaintiff] (or the mention
of [Plaintiffs] name in any criminal investigation of any
other person) from January 1, 2012 through the present."
[Dkt. 18-4 at 9],
not, however, explain how that makes a difference here, and,
indeed, it appears that requests made under FOIA are
generally entitled to broader disclosure than those made under
the Privacy Act. See, e.g., Acosta v. F.B.L. 946 F. Sudd. 2d 53,
61-62 (D.D.C. 2013).

74a

Also on April 17, 2017, Plaintiff sent a request to the U.S.
Attorney's Office for the District of Connecticut ("USAOCT") regarding communications she had with one of its
Assistant U.S. Attorneys, David X. Sullivan. She requested
"all documents in [its] possession relating in any way" to
(1) Plaintiffs "report to Assistant United States Attorney
David X. Sullivan in August of 2000 that [Plaintiff] was the
target of criminal activities in South Boston,
Massachusetts," and (2) Plaintiffs "report to Assistant
United States Attorney David X. Sullivan sometime in
August of 2000 that [Plaintiff] had seen Whitey Bulger in
person in South Boston, Newton, or the Greater Boston
area." [Dkt. 18-4 at 12]. Plaintiff did not explain how she
made these communications or why she made them to a
U.S. Attorney's Office outside the District of
Massachusetts.

,

Although not ultimately material to the resolution of this
case, the agency response to these requests can only be
described as confused. A May 5, 2017 letter from USAOMA informed Plaintiff that her request had been forwarded
to the Freedom of Information/Privacy Act Unit of the
Executive Office of for United States Attorneys ("EOUSA")
for review prior to processing. [Dkt. 18-4 at 16]. On May 19,
2015, EOUSA sent Plaintiff a letter informing her that her
request, the subject of which is identified as "Self (Specific
records)/CT" had been assigned tracking number FOIA2015-02310. [Dkt. 18-4 at 18]. Apparently assuming that
the May 19 letter referred to her USAO-CT request,
Plaintiff asked EOUSA to provide her an update on the
status of her USAO-MA request. [Dkt. 18-4 at 22]. In a
letter dated August 13, 2015, which identifies the subject
of the request as "Self (Specific Records)-USAO District of

75a

Massachusetts," EOUSA informed Plaintiff that a "search
for records located in the United States Attorney's Office
for the District of Connecticut has revealed no responsive
records." [Dkt. 18-4 at 25].
On September 22, 2015, the Office of Information Policy at
the U.S. Department of Justice ("OIP") sent Plaintiff a
letter noting that Plaintiff had appealed "from the action of
[EOUSA] on [her] Freedom of Information Act request for
access to records located in the United States Attorney's
Office for the Districts of Massachusetts and Connecticut
concerning reports that. . . [she] provided to an Assistant
United States Attorney." [Dkt. 18-4 at 27]. OIP informed
her that EOUSA had divided the request into two,
assigning tracking number FOIA-2015-02310 to the
portion of the request seeking records from USAO-MA and
tracking number FOIA-2015-03073 to the portion of the
request seeking records from USAO-CT. Id. Adding to the
confusion, OIP stated that it affirmed EOUSA's report that
the USAO-MA request uncovered no responsive records
and noted that the USAO-CT request was still being
processed. Id.
Apparently in response to an inquiry by Plaintiff, USAOCT then attempted to clarify the situation. In a letter dated
October 28, 2015, USAO-CT asserted that the request
directed to it was assigned the number FOIA-2015-02310.
[Dkt. 18-4 at 30], USAO-CT processed that request and
found no responsive records regarding her report to AUSA
Sullivan; however, when EOUSA sent her the decision, it
mistakenly identified the District of Massachusetts in the
subject line. Id. That led to confusion at OIP when it
reviewed her appeal, resulting in the September 22, 2015
decision that "referenced Massachusetts, but should have

76a

referenced Connecticut." Id. USAO-CT had no knowledge
of FOIA-2015-03073, but suggested that the number was
assigned to the request directed to USAO-MA. Id. at 30-31.
However, a decision from EOUSA dated November 10,
2015 referencing request number FOIA-2015-03073
identifies the subject as "Self7Specific Records-USAO
Connecticut" and states that a search in that office
recovered no responsive records. [Dkt. 18-4 at 33]. OIP's
decision in the appeal of that decision again states that it
concerns EOUSA's action on Plaintiffs FOIA request "for
access to records located in the United States Attorney's
Office for the District of Connecticut concerning reports
[she] allegedly made to an Assistant United States
Attorney in August 2000." [Dkt. 18-4 at 35].
Subsequent to these rather bewildering communications
(and after Plaintiff filed this action), both USAO-MA and
USAO-CT engaged in searches directed to each of
Plaintiffs FOIA requests in a more orderly fashion,
querying the offices' case management systems,
interviewing relevant individuals, and checking archived
paper records, among other things. [Dkt. 16-2 (detailing
USAO-CT searches); Dkt. 16-3 (detailing USAO-MA
searches)].
B. Procedural History
Having presumably exhausted her administrative
remedies, Plaintiff filed her complaint in this Court in
November 2016. [Dkt. 1]. Defendant filed its Answer on
January 9, 2017, and Plaintiff served Defendant with
Requests for Admission on January 26, 2017, and February
1, 2017. [Dkt. 5; Dkt. 18-4 at 41, 47]. Those requests asked

77a

Defendant to admit, among other things, that it did not
search for all of the records described in Plaintiffs FOIA
requests, that documents described in the FOIA requests
exist, that Defendants' reference to "responsive records" in
its communications with Plaintiff "did not encompass
records which it deemed exempt under FOIA," and that
Defendant's search in response to Plaintiffs request to
USAO-MA sought records regarding only Plaintiffs report
to AUSA Sullivan and searched only records located at
USAO-CT. [Dkt. 18-4 at 39, 46],
In early March 2017, in response to an order entered by
Judge Sullivan, Defendant proposed a schedule for briefing
cross-motions for summary judgment. [Dkt. 8]. Plaintiff,
however, asserted that "any agency dispositive motion . . .
would be conclusive at best," and sought entry of a
discovery schedule; in the alternative, she proposed a
summary judgment briefing schedule. [Dkt. 9]. On March
17, 2017, Defendant filed a Motion for a Protective Order
"to forbid any discovery" in the case. [Dkt. 11 at 1]. Over
Plaintiffs opposition, the Court granted the motion in part,
ruling that Plaintiffs requests for discovery were
premature. Minute Order dated Apr. 21, 2017. The Court
ultimately ordered a summary judgment briefing schedule
under which the cross-motions would be fully submitted by
August 18, 2017. Minute Order dated Apr. 6, 2017.
In the midst of summary judgment briefing, Plaintiff filed
a motion to take discovery pursuant to Rule 56(d) of the
Federal Rules of Civil Procedure. [Dkt. 25]. The Court
denied the motion as premature in light of the ongoing
summary judgment briefing, Minute Order dated June 27,
2017, and Plaintiff promptly filed her Motion for
Reconsideration [Dkt. 26]. Thereafter, the case was

78a

referred to the undersigned. Minute Order dated July 17,
2017. Later, Judge Friedrich took over the case from Judge
Sullivan. Order dated Dec. 4, 2017.
C. Summary Judgment Motions
As noted, the parties have filed cross-motions for summary
judgment. Defendant argues that its searches in
connection with Plaintiffs FOIA requests were adequate,
relying on declarations from Elisha Biega, the FOIA
coordinator for USAO-CT; Susanne Husted, the FOIA
coordinator for USAO-MA; and David Luczynski, Attorney
Advisor for EOUSA's FOIA unit. [Dkt. 16 at 3-7; Dkt. 16-2,
If 1; Dkt. 16-3,1ft 1-3; Dkt. 30-1, t 1].
Plaintiff makes a number of arguments in response. She
first contends that Defendant's failure to respond to her
Requests for Admission, as well as certain averments in
Defendant's Answer that it lacked sufficient knowledge to
confirm or deny Plaintiffs allegations, function as
admissions establishing that the records she seeks exist
and that Defendant did not perform an adequate search.
[Dkt. 18-1 at 6-9]. Based on these purported admissions,
she argues that the Court may not consider the
contradictory assertions in the declarations of Ms. Biega
and Ms. Husted, and that, having thus established that the
requested documents exist, there is a genuine issue of
material fact as to whether the searches were adequate and
whether documents are being improperly withheld. Id. at
9-13. She then challenges the declarations of Ms. Biega and
Ms. Husted as substantively insufficient to establish that
adequate searches were performed. Id. at 14-17, 25-36. She
further asserts that Ms. Biega and Ms. Husted are

79a

improper declarants, and attacks the form of their
declarations.4 Id. at 18-25. Finally, she contends that,
based on the language used in the relevant declarations, a
genuine issue of material fact exists as to whether
Defendant is withholding records based on 5 U.S.C. <j>
552(c). which exempts certain law enforcement records
from the requirements of FOIA. Id. at 36-39. Plaintiff also
moves for summary judgment on Defendant's affirmative
defenses that the Court lacks subject matter jurisdiction
over this action and that information responsive to
Plaintiffs FOIA requests are protected from disclosure by
statutory exemptions. Id. at 39-41.
In addition, Plaintiff seeks reconsideration of Judge
Sullivan's decision on her motion for discovery pursuant to
Rule 56(d). The undersigned turns to that motion first.

DISCUSSION

A. Motion for Reconsideration
In this Court, a motion for reconsideration of a decision on
a non-dispositive matter may be granted "as justice
requires." Ludlam v. U.S. Peace Corps, 970 F. Sum). 2d, 19.
20 (D.D.C. 2013) (quoting Judicial Watch u. Dep't of Army,
466 F. Supy. 2d 112. 123 (D.D.C. 2006)): see also Fed. II.

4 Plaintiffs arguments regarding Defendant's purported
admissions and the competency of Ms. Biega and Ms. Husted
as declarants mirror the arguments in her Motion to Strike
[Dkt. 20], which is addressed in a separate Order.

80a

Civ. P. /54(b) ("[A]ny order or other decision, however
designated, that adjudicates fewer than all the claims or
the rights and liabilities of fewer than all the parties does
not end the action as to any of the claims or parties and
may be revised at any time before the entry of a
judgment adjudicating all the claims and all the parties'
rights and liabilities"). In ruling on such a motion, a court
may consider "whether the court patently misunderstood
the parties, made a decision beyond the adversarial issues
presented, made an error in failing to consider controlling
decisions or data, or whether a controlling or significant
change in the law has occurred." Id. at 20-21 (quoting In
Def. of Animals v. Nat'l Inst, of Health. 543 F. Sudd. 2d, 70,
75 (D.D.C. 2008)). The proponent of reconsideration must
show that denial of her motion will result in "legal or at
least tangible" harm. Id. at 21 (quoting In Def. of Animals.
543 F. Sudd. 2d. at 76). The court should exercise its broad
discretion on such motions keeping in mind the strictures
of the law of the case doctrine and the principle that, once
a court has ruled on a motion, the interested parties should
be required to address it again only in rare circumstances.
See id. ("[The court's] discretion is 'limited by the law of the
case doctrine and subject to the caveat that where litigants
have once battled for the court's decision, they should
neither be required, nor without good reason permitted, to
battle for it again.'" (quoting In Def. of Animals, 543 F.
Sudd. 2d at 76)).
Plaintiff has not made the required showing here. She
appears to argue that Judge Sullivan failed to consider
controlling decisions of law: "[T]he summary denial and
removal of Plaintiffs Motion from the docket was an error
of law that should be reversed." [Dkt. 26 at 3]. Plaintiff is

81a

incorrect. She ignores the fact that FOIA cases are
"typically and appropriately decided on motions for
summary judgment" in which the defendant agency relies
solely "on reasonably detailed, nonconclusory affidavits
submitted in good faith." Ryan v. F.B.I.. 174 F. Sudd. 3d
486, 490-91 (D.D.C. 2016) (first quoting Gold Anti—Trust
Action Comm., Inc, v, Bd. of Governors of Fed. Reserve Svs.,
762 F. Supy. 2d 123, 130 (D.D.C. 2011). then quoting
Weisbers v. U.S. Dev 7, of Justice. 745 F.2d 1476, 1485, 240
U.S. Apt). D.C. 339 (D.C. Cir. 1984)). "Discovery in FOIA
cases is rare," in part because agency affidavits are entitled
to a presumption of good faith, "which cannot be rebutted
by purely speculative claims about the existence and
discoverability of other documents." Competitive Enter.
Inst, v. Office of Sci. & Tech. Policy, 161 F. Supy. 3d. 120,
136 (D.D.C. 2016). Indeed, even if a court determines that
the agency's declarations are insufficient, the "remedy of
first resort" is not discovery, but a request for the agency
to "supplement its supporting declarations."5 Freedom
Watch v. Bureau of Land Mstnt., 220 F. Suoo. 3d 65, 70
(D.D.C. 2016) (quoting Judicial Watch v. Deo't of Justice.
185 F. Sudd. 2d 54. 65 (D.D.C. 2002)).
Plaintiff identifies no case that would require granting her
discovery motion in the circumstances presented. Her
reliance on Concertino v. U.S. Dev't of Justice. 684 F. 3d, 93,
401 U.S. App. D.C. 297(D.C. Cir. 2012). is misplaced. That
case addressed a situation in which a federal prosecutor

5 Plaintiffs statement that Competitive Enterprise Institute
and Freedom Watch are "inapposite" because they did not
concern Rule 54(d) motions [Dkt. 29 at 3] is not supported by
precedent, argument, or logic.

82a

who was under investigation by the Department of
Justice ("DOJ") for certain alleged ethical violations in a
terrorism prosecution sued the department alleging that
"an unidentified DOJ employee willfully or intentionally
disclosed confidential Privacy Act-protected information to
[a] reporter." Id. at 97. Discovery "was both slow and
litigious," because, among other things, the reporter
invoked his Fifth Amendment right against self­
incrimination at his deposition. Id. at 97-98. When the
discovery period ended, DOJ moved for summary
judgment, and the plaintiff cross-moved for a stay in order
to continue to pursue discovery as to the identity of the
alleged leaker. Id. at 98. The D.C. Circuit reversed the
decision granting the defendant's motion and denying the
plaintiffs motion. It based its decision,on the district
court's "mistaken view" that the plaintiff could continue his
discovery efforts in other courts even after the main
litigation had terminated, as well as "the 'monumental'
efforts [the plaintiff] ha[d] taken to discover the needed
information." Id. at 102 (quoting Converting v. U.S. Deo’t
of Justice. 769 F. Sudd. 2d 139. 144 (D.D.C. 2011)). That
situation is hardly analogous to the case, here—an action
seeking documents pursuant to FOIA from an
administrative agency. Johnson v. United States. 188
F.R.D. 692, 696 (N.D. Ga. 1999). is even less helpful to
Plaintiff. She cites that case for the proposition that
"[w]here there are both pending discovery requests and
pending summary judgment motions in a case, it is an
abuse of district court discretion to grant the motion for
summary judgment without first considering the discovery
motions." Id. at 696. That is not the case here, as Judge
Sullivan considered and denied her discovery motion prior

83a

to any consideration of the summary judgment motions at
issue in this Report and Recommendation.
Moreover, her complaint that Judge Sullivan's order must
be reconsidered because it addressed only the issue of
discovery and not her request for a stay is ill-considered.
The sole reason to impose a stay of summary judgment
briefing would have been to allow plaintiff to engage in
discovery. The denial of the discovery request therefore
required and implied the denial of the stay request.
Finally, Plaintiff has not shouldered her burden of
establishing harm from denial of the reconsideration
motion. Indeed, she insists that "[t]he only issue [here] is
not whether [she] may obtain discovery, but whether it was
an abuse of the Court's discretion and an error of law to
remove the Rule 56(d) Motion as a proper filing on the
docket without considering it based on the factors in
Convertino ." [Dkt. 29 at 2], That is, she argues that the
harm she has suffered is merely that her original motion
did not get the consideration it deserved, rather than that
the decision was incorrect and she is entitled to the
requested discovery. This is too inchoate a harm to merit
granting Plaintiffs reconsideration motion. See, e.g.,
Ludlarn, 970 F. Sudd. 2d at 20 (requiring "legal or at least
tangible"
harm
before
granting
motion
for
reconsideration).
The undersigned therefore recommends denying the
Motion for Reconsideration.

B. Defendant's Motion for Summary Judgment

84a

1. Legal Standard
FOIA presumes that an informed citizenry is "vital to the
functioning of a democratic society, needed to check against
corruption and to hold the governors accountable to the
governed." NLRB v. Robbins Tire & Rubber Co437 U.S.
214. 242. 98 S. Ct. 2311. 57 L. Ed. 2d 159 (1978). It was
enacted to "pierce the veil of administrative secrecy and to
open agency action to the light of public scrutiny," and
generally favors "full agency disclosure." Dev't of the Air
Force u. Rose. 425 U.S. 352. 360-61. 96 S. Ct. 1592. 48 L.
Ed. 2d 11 (1976) (quoting Rose v. Pep't of the Air Force. 495
F.2d 261, 263 (2d Cir. 1974)). All the same, it incorporates
nine exemptions aimed at balancing these ideals with the
possibility that, "legitimate governmental and private
interests could be harmed by release of certain types of
information." Critical Mass Energy Project v. Nuclear
Resulatorv Comm’n. 975F.2d 871. 872. 298 U.S. Auv. D.C.
8 (D.C. Cir. 1992) (en banc) (quoting FBI v. Abram.son, 456
U.S. 615. 621. 102 S. Ct. 2054. 72 L. Ed. 2d 376(1982)).
FOIA cases are generally resolved on motions for summary
judgment. Bravton u. Office of the U.S. Trade Rep., 641
F.3d 521. 527. 395 U.S. Add. D.C. 155 (D.C. Cir. 2011). The
agency has the burden of justifying its response to the
FOIA request it received, and the federal court reviews its
response de novo. 5 U.S.C. 1552(a)(4)(B). "At the summary
judgment stage, where the agency has the burden to show
that it acted in accordance with the statute, the court may
rely on '[a] reasonably detailed affidavit, setting forth the
search terms and the type of search performed, and

85a

averring that all files likely to contain responsive materials
(if such records exist) were searched.'" Valencia-Lucena v.
U.S. Coast Guard. 180 F.3d 321. 326. 336 U.S. Add. D.C.
386 (D.C. Cir. 1999) (alteration in original) (quoting
Oglesby v. U.S. Dep't of the Army. 920 F. 2d 57, 68. 287 U.S.
Add. D.C. 126 (D.C. Cir. 1990)). Such affidavits or
declarations "are accorded a presumption of good faith,
which cannot be rebutted by 'purely speculative claims
about the existence and discoverability of other
documents.'" Safe-Card, Servs.. Inc, v. SEC, 926 F.2d 1197.
1200, 288 U.S. Add. D.C. 324 (D.C. Cir. 1.991) (quoting
Ground Saucer Watch. Inc, v. CIA, 692 F.2d 770, 771, 224
U.S. Add. D.C. 1 (D.C. Cir. 1981)). Moreover, a defendant
may seek summary judgment based on searches performed
after the inception of litigation in federal court. See, e.g.,
Ray v. Fed. Bureau of Prisons, 811F. Sudd. 2d 245, 247-48.
250 (D.D.C. 2011) (granting summary judgment for
defendant where original FOIA request mishandled and
search did not commence until after filing of complaint); Cf.
Toensing v. U.S. Dep't of Justice. 890 F. Sudd. 2d 121. 149
(D.D.C. 2012) (denying defendant's motion for summary
judgment without prejudice to renewal after searches
modified); People for the Ethical Treatment of Animals. Inc,
v. Bureau of Indian Affairs. 800 F. Sudd. 2d- 173, 178 n.2
(D.D.C. 2011) (noting that courts often require agency to
conduct more thorough search before granting plaintiff
relief and terminating case).
More generally, summary judgment is appropriate "if the
movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a
matter of law." Fed. R. Civ. P. 56(a): Anderson v. Liberty
Lobby. Inc.. 477 U.S. 242. 248. 106 S. Ct. 2505. 91 L. Ed.

86a

2d 202 (1986). In adjudicating such a motion, all
reasonable inferences from the facts in the record must be
made in favor of the non-moving party. Anderson. 477 U.S.
at 255. To prevail, the moving party must show that there
is no genuine issue of material fact. Celotex Cory, v. Catrett,
477 U.S. 317. 323. 106 S. Ct 2548. 91 L. Ed, 2d 265 (1986).
To do this, it may cite the record, including "affidavits or
declarations." Fed. R. Civ. P. 56(c)(1)(A). Factual assertions
made in the moving party's affidavits or declarations may
be accepted as true in the absence of contrary assertions
made in affidavits, declarations, or documentary evidence
submitted by the non-moving party. Neal v. Kelly, 963F.2d
453. 456. 295 U.S. Aim. D.C. 350 (D.C. Cir. 1992).

2. Defendant's Purported Admissions
Plaintiff asserts that Defendant should be deemed to have
made admissions as to some of the critical issues in this
case—for example, that the records sought in Plaintiffs
FOIA requests exist—because Defendant (1) failed to
respond to Plaintiffs Requests for Admissions on the
relevant questions and (2) improperly asserted that it
lacked sufficient knowledge to admit or deny the relevant
allegations in its Answer. Neither argument succeeds.
The first contention is frivolous. Defendant filed a motion
for a protective order to insulate it from discovery in this
matter. [Dkt. 11], That motion specifically identified
Plaintiffs Requests for Admissions. Id. at 2. Judge Sullivan
granted the motion in relevant part, stating, " [Defendant
is not required to respond to plaintiffs discovery requests
at this time." Minute Order dated Apr. 6, 2017. Plaintiffs
insistence that the order operates only prospectively [Dkt.

87a

32 at 3] has no foundation in the text of the Order. Indeed,
Plaintiff made that argument in opposition to Defendant's
motion [Dkt. 13 at 6-7], and Judge Sullivan necessarily
rejected it when he absolved Defendant of the duty to
respond.6
The second argument fares no better. Defendant stated in
its Answer that it lacked sufficient knowledge to admit or
deny that documents responsive to Plaintiffs requests
existed. [Dkt. 5,
20, 27]. Plaintiff asserts these
statements were a sham because Defendant "supposedly
did a search for [the requested documents] the year before."
[Dkt. 20-1 at 4], However, as the Court noted in Clay v.
District of Columbia, a case Plaintiff cites in support of her
motion, "courts generally resort to the sanction of deeming
an allegation as admitted" only "where there is bad faith or
evasive pleading." 831 F. Supp. 2d 36, 47 (D.D.C. 2011).
Plaintiff has shown neither here. It is not unusual for an
agency to continue to search for requested documents after
a complaint has been filed, see, e.g., Ray. 811 F. Sudd. 2d
at 247-48, and, indeed, Defendant did so here. [Dkt. 16-2,
H 13-15; Dkt. 16-3, til 17, 21-26]. Given the evident
confusion over Plaintiffs FOIA requests outlined above,

6 To the extent that any matters could be deemed admitted by
Defendant's failure to respond, Judge Sullivan's order had the
effect of withdrawing those admissions pursuant to Rule 36(b)
of the Federal Rules of Civil Procedure. To quibble, as Plaintiff
does, that the motion did not cite Rule 36(b) [Dkt. 32 at 3] is to
exalt form over substance. See, e.g., Teauila Centinela. S.A. de
C.V. v. Bacardi & Co.. 247F.R.D. 198. 205 (D.D.C. 2008) ("Rule
36 'has never been interpreted so woodenly'" as to require a
court to deem a matter admitted in the absence of a timely
response, (quoting Banks v. Office of the Senate Sergeant —atArms and Doorkeeper, 226 F.R.D. 113. 118 (D.D.C. 2005))).

88a

those additional searches and Defendant's responses in its
Answer were both rational and accurate. Plaintiff cites
Summerville v. Covington Coal LLC. No. 14-cv-2099. 2016
U.S. Dist. LEXIS 29076. 2016 WL 797178. at *1 (S.D. hid.
Mar. 7, 2016) to support her claim that Defendant could
have "with the 'slightest effort'" determined definitively
whether it did or did not possess the requested information
prior to filing its Answer. [Dkt. 18-1 at 8]. That argument
is subverted not only by the description of the searches in
which the agency actually engaged here, which included
interviewing individuals as well as searching electronic
and paper records [Dkt. 16-2,
3, 13-15; Dkt. 16-3,1317, 21-26, 28], but also by Plaintiffs own position that even
more extensive searches were necessary [Dkt. 18-1 at 2830, 32-36]. There is therefore no basis upon which to deem
as admitted Plaintiffs statements that responsive
documents exist.
3. Declarations of Ms. Biega, Ms. Husted, and EOUSA
Plaintiff attacks the declarations of Ms. Biega and Ms.
Husted, asserting that the declarants are not competent to
provide evidence because neither supervised the FOIA
searches, because EOUSA was the entity that "processed"
the searches, because Ms. Biega's declaration is based on
hearsay, and because Ms. Husted made her statement
based in part on "information and belief."7 [Dkt. 18-1 at 1825]. Plaintiff is incorrect on all counts.

7 The undersigned addresses these points out of the order in
which they are presented in Plaintiffs brief because, like the
issues in the section immediately above, they are based on

89a

Plaintiff begins by asserting that "[i]t is well established
that an agency must proffer the declaration of a
supervisory employee who processes searches when the
agency moves for summary judgment in FOIA cases." [Dkt.
18-1 at 19]. The cases she cites, however, establish no such
thing. Rather, they stand for the proposition that one who
supervises FOIA searches is an appropriate declarant, not
the only appropriate declarant. See Am. Fed'n of Gov't
Emos.. Local 812 v. Broad. Bd. Of Governors. 711 F. Sudd.
2d 139. 150 (D.D.C. 2010) ("[A]n agency may rely on an
affidavit of an agency employee responsible for supervising
the search." (alteration in original) (emphasis added)
(quoting Maynard, v. C.I.A., 986 F.2d, 547. 560 (1st Cir.
1993))): Rosenfeld v. U.S. Dev't of Justice. No. C 07-3240,
2008 U.S. Dist. LEXIS 64620. 2008 WL 3925633. at *11
(N.D. Cal. Aug. 22. 2008) ("For an action involving a FOIA
request, an agency may submit a declaration from an
agency official with 'responsibility for coordinating the
agency's decisions on FOIA requests where that official has
personal knowledge of the procedures used in handling the
FOIA request at issue and is familiar with the documents
in question.'" (emphasis added) (quoting Berman v. C.I.A.,
378 F. Sudd. 2d 1209. 1216 n. 7 (E.D. Cal. 2005))): Brovhv
v. U.S. Dev't of Defense. No. 05-cv-360, 2006 U.S. Dist.
LEXIS 11620. 2006 WL 571901. at *4-5 (D.D.C. Mar. 8.
2006) (approving declaration of supervisory employee
because "necessity is the mother of invention" and success
of federal FOIA program requires, as practical matter,
allowing such declarations). These cases clearly indicate
that it is appropriate in a FOIA case to submit a
declaration from a person who conducted the search or a
procedural or formal issues and they are included in Plaintiffs
motion to strike.

90a

person who supervised the search. Here, each declarant is
the FOIA contact person for her district, meaning that she
is familiar with the procedures for handling FOIA requests,
and each asserts that she performed searches related to
Plaintiffs requests, supervised such searches, or both.
[Dkt. 16-2, KH 1; 13-15 (Ms. Biega personally searched files
and sought additional information from other employees);
Dkt. 16-3, tlf 1, 3, 13-29 (Ms. Husted supervised searches
and personally performed searches)]. Each is therefore an
appropriate declarant. See, e.g., Taylor Energy Co. v.
United States Dep't of Interior Bureau of Ocean Energy
Ms rut,. 271 F. Sudd. 3d 73. 92 n.ll. 2017 WL 4236522. at
*12 n, 11 (D.D.C. 2017) (approving use of declarations based
on personal knowledge and information from officers
responsible for FOIA requests).
Plaintiffs assertion that Ms. Biega "did not review the
official files and records of USAO Connecticut or have a
familiarity with its records" [Dkt. 18-1 at 23], which is the
basis of her hearsay objection, is belied by Ms. Biega's
declaration, which, as noted, makes clear that she had such
familiarity and performed searches. [Dkt. 16-2, f^[ 1, 1315]. Moreover, it is well-established that "[declarations
'containing] hearsay in recounting searches for documents
are generally acceptable' in FOIA cases." Allen v. Fed,
Bureau of Prisons, 263 F. Sudd. 3d 236, 242 (D.D.C. 2017)
(second alteration in original) (quoting Kay u. FCC, 976 F.
Sudd. 23. 34 n.29 (D.D.C. 1997)).
Plaintiffs related complaint that no one from EOUSA filed
a declaration [Dkt. 18-1 at 19] is irrelevant and, ultimately,
inaccurate—indeed, Plaintiff cites no case (nor is the
undersigned aware of any) for the proposition that, where
the adequacy of a search is at issue, an agency must file an

91a

affidavit from the individual who "processed" FOIA
requests. It is irrelevant because EOUSA did not perform
or directly supervise the searches, so a declaration would
not be probative as to the adequacy of those searches. See,
e.g., Rosenfeld. 2008 U.S. Dist. LEXIS 64620. 2008 WL
3925633, at *12 (rejecting declaration where there was no
evidence that declarant directly supervised those
performing searches). It is incorrect because Defendant
submitted with its Reply a declaration from an Attorney
Advisor employed at EOUSA. That declaration explains
EOUSA's limited role in FOIA requests sent to U.S.
Attorney's Offices, which does not include directing,
providing, or evaluating searches.8 [Dkt. 30-1,
4-7].

8 Plaintiff also complains that EOUSA's declaration does not
comply with 28 U.S.C. ft 1746. [Dkt. 32 at 11/. Section 1746
provides that unsworn declarations may be used just as sworn
statements as long as they substantially comply with the
prescribed form: "I declare (or certify, verify, or state) under
penalty of perjury under the laws of the United States of
America that the foregoing is true and correct." 28 U.S.C. $
1746: see Cobell v. Norton. 391 F.3d 251, 260. 364 U.S. Add.
D.C. 2 (D.C. Cir. 2004) ("28 U.S.C. $ 1746 contemplate[s] as
adequate certifications that are 'substantially' in the form of
the language of their provisions."); LeBoeuf. Lamb. Greene &
MacRae. L.L.P. v. Worsham. 185 F.3d 61. 66 (2d Cir. 1999)
("[SJubstantialQ
compliance]
with
these
statutory
requirements ... is all that this Section requires."). The
declaration at issue states, "Pursuant to 28 U.S.C. $ 1746. I,
David Luczynski, declare the following to be a true and correct
statement of facts." [Dkt. 30-1 at 1]. That is sufficient. See, e.g.,
Project Vote v. Blackwell. No. 1:06-CV-1628. 2009 U.S. Dist.
LEXIS 34571. 2009 WL 917737. at *2 n.6 (N.D. Ohio Mar. 31.
2009) (unsworn declaration "satisfies the spirit of the rule" by
citing statute); Reliance Ins. Co. v. United States. 23 Cl. Cl. 108.
113 n.2 (1.991) (accepting unsworn declaration that cites
statute and states that statements are true and correct).

92a

Finally, Plaintiff complains that one of the declarants, Ms.
Husted, affirmed that her declaration was "true and
correct, to the best of [her] knowledge and belief." [Dkt. 181 at 25; Dkt. 16-3 at 7]. This is insufficient, Plaintiff argues,
because lay evidence submitted in connection with a
motion for summary judgment must be based on personal
knowledge alone. [Dkt. 18-1 at 25; 21-1 at 13-15]. However,
as noted above, a declaration from a person who
supervised, but did not herself perform, a search may be
submitted in connection with a motion for summary
judgment in a FOIA case. Thus, a declaration based on
"knowledge and belief' is appropriate. See, e.g., Climate
Investigations Center v. U.S. Dep't of Energy. No. 16-cv124. 2017 U.S. Dist. LEXIS 146246. 2017 WL 4004417. at
*9 (D.D.C. Sept. 11, 2017) (rejecting challenge to
declaration made on knowledge and belief in FOIA case
because such evidence may be based "'partly [on] second­
hand' information" (quoting Safe-Card Servs., Inc, v.
S.E.C.. 926 F.2d. 1197. 1201. 288 U.S. Add. D.C. 324 (D.C.
Cir. 1991))): Hainev v. U.S. Dep't, of the Interior. 925 F.
Sudd. 2d. 34. 41 (D.D.C. 2013) (rejecting challenge to
declaration in FOIA case made on knowledge and belief).
Plaintiffs objections to the identity of Defendants'
declarants or the form of their declarations are therefore
unwarranted.

4. Content of FOIA Searches
Plaintiff mounts a number of objections to the content of
the searches Defendant performed, complaining about both
the terms and the locations searched. She also argues that
the specific language used in Defendant's declarations

93a

indicates that Defendant did not complete a full and
adequate search under FOIA and that Defendant is
withholding documents under the Privacy Act. Other than
the challenge to USAO-CT's failure to search AUSA
Sullivan's email account, these arguments are
unsuccessful.
a. Search Terms
Plaintiff disapproves of Defendant's search terms because
they were based exclusively on her name. [Dkt. 18-1 at 1617, 27-29; Dkt. 16-2,
13-15 (describing USAO-CT search
terms based on versions of Plaintiffs name); Dkt. 16-3,
13, 15-17, 21, 28 (describing USAO-MA search terms based
on versions of Plaintiffs name)]. She notes that she sought
not only records of which she was the subject, but also
information "related to" those records. [Dkt. 18-1 at 29].
But each of Plaintiffs requests focused on information
about Plaintiff. She sought documents related to (1)
criminal investigations of her; (2) the mention of her name
in any criminal investigation of another person; (3)
information that she was the subject or target of criminal
activities; and (4) her report of having seen Whitey Bulger.
[Dkt. 18-4 at 7, 9, 12]. The obvious starting point—indeed,
the only rational starting point—for these searches is
Plaintiffs name. And that is pi'ecisely where both USAOCT and USAO-MA began, with variations of Plaintiffs first
and last names. USAO-CT searched for "Discepolo" and
"Sara Discepolo" in electronic files, searched existing hard
files bearing her name, sought additional hard files bearing
her name but found none, and quizzed AUSA Sullivan
using her name. [Dkt. 16-2,
13-15]. USAO-MA similarly
searched electronic files for "Discepolo," "Sara," and "Sara

94a

Discepolo," searched paper files for "Discepolo" and "Sara
Discepolo," and asked individuals involved in the Bulger
trial about her by name. [Dkt. 16-3,1HJ13,15-17, 21-23, 26,
28]. None of the inquiries revealed information responsive
to her requests.
"The adequacy of a search [under FOIA] is measured by a
standard of reasonableness ...." Cunningham v. U.S. Dep't
of Justice. 961 F. Sudd. 2d 226, 236 (D.D.C. 2013): see also
Bigwood v. United States Dep't of Def., 132F. Supp. 3d 124,
135 (D.D.C. 2015) ("[T]he agency's search for records need
not be exhaustive, but merely reasonable."). Although
Plaintiff insists that these searches were too narrow [Dkt.
18-1 at 16-17, 27-29], it is unclear what further search
terms could have been used to find information "related to"
investigations of or involving her once the searches using
her name failed to bear fruit. Defendant's use of Plaintiffs
name to organize its searches was reasonable. Cf. Sack v.
Dep’t of Justice. 65 F. Sudd. 3d 29. 35-36 (D.D.C. 2014)
(affidavit insufficient where it failed to indicate whether
agency searched for files regarding organization
specifically mentioned in FOIA request).
b. Search Locations
Regarding search locations, Plaintiff asserts that the
searches performed in CaseView, Defendant's case
management system [Dkt. 16-2, U 4; Dkt. 16-3,1 27],9 were

9 CaseView "tracks several types of information including the
names of plaintiffs, investigative targets, defendants, when the
investigation was opened, and when it was closed," as well as
the location of archived documents. [Dkt 16-3, If 27]. It also
includes "the names of any related cases, what the case is
about, the name of the AUSA(s) handling the case or matter,

95a

insufficient. She points out that Ms. Husted's declaration
lists some, but not all, of the CaseView fields that are
searchable; states that all searchable CaseView fields were
searched; and fails to explain "whether a search can be
done in all of CaseView without being limited by the search
methods/search fields described." [Dkt. 18-1 at 30]. The
argument is confused, at best. The only reasonable
interpretation of the declaration at issue is to take Ms.
Husted at her word: the search for Plaintiffs name "was
conducted in all searchable fields for CaseView." [Dkt. 163, K 28]; see SafeCard Servs.. 926 F.2d at 1200 (declarations
are to be accorded a presumption of good faith). The fact
that Ms. Husted did not exhaustively explain the
architecture of CaseView is immaterial, especially in light
of the averment that CaseView includes information about
all investigations pursued by a U.S. Attorney's office. [Dkt.
16-3, ^ 27]. Plaintiffs hypothesis that CaseView does not
include information pre-dating the year 2000 [Dkt. 18-1 at
30, 32] is negated by EOUSA's declaration, which explains
that information in LIONS, the former case tracking
system, was migrated to CaseView, which consequently
includes information dating back to 1997. [Dkt. 30-1, ^ 9].
Many of Plaintiffs remaining issues challenge the specific
records systems searched, or, more accurately, challenge
Defendant's decision not to search other records systems.
Specifically, Plaintiff asserts that Defendant should have
searched archived records, the records of the Joint Fugitive
Task Force, and the emails of employees working with the
Task Force and with AUSA Sullivan. [Dkt. 18-1 at 31-36].

the judge assigned to the case, and the status of the case." [Dkt.
16-2, H 4],

96a

"There is no requirement that an agency search every
record system. However, the agency cannot limit its search
to only one record system if there are others that are likely
to turn up the information requested." Oeiesbv, 920 F.2d at
68 (internal citations omitted). Nevertheless, a court is
entitled to rely on "[a] reasonably detailed affidavit, setting
forth the search terms and the type of search performed,
and averring that all files likely to contain responsive
materials (if such records exist) were searched." ValenciaLucena, 180 F.3d at 326 (alteration in original). Where a
plaintiff provides a reasonable basis to believe that other
files, systems, or locations are likely to have responsive
documents, the agency should search them or explain why
they were not searched. See, eg., Wilson v. U.S. Dep't of
Justice. 192 F. Sudd. 3d 122. 128 & n.3 (D.D.C. 2016)
(requiring response from agency as to why records systems
were not searched in light of plaintiffs "suggestion . . .
based on declarations filed previously by the agency" that
they "may . . . contain additional responsive records").
Here, Defendant's declarations explain that CaseView
includes information about each investigation pursued by
a U.S. Attorney's Office and that a search of CaseView is
the primary way to search for case-related documents.
[Dkt. 16-2,1 6; Dkt. 16-3,H 27, 30-31], Both USAO-CT and
USAO-MA searched CaseView for Plaintiff's name. [Dkt.
16-2, H 13; Dkt. 16-3, H 28]. In addition, USAO-CT further
searched the Citizens Complaint email and questioned
AUSA Sullivan. [Dkt. 16-2, 1111 14-15], USAO-MA
interviewed members of Mr. Bulger's prosecution team,
queried a searchable database including records produced
in discovery on that case, searched other electronic files
related to the case, and went through boxes of files,

97a

including files that had been archived. [Dkt. 16-3, tH 1326]. Both offices assert that all systems of records likely to
contain responsive records were searched. [Dkt. 16-2, f 16;
Dkt. 16-3, t 32],
The undersigned finds that the declarations describe
searches "reasonably calculated to uncover all relevant
documents," Ancient Coin Collectors Guild v. U.S. Dep't of
State. 641 F.3d 504. 514. 395 U.S. Add. D.C. 138 (D.C. Cir.
2011) (quoting Valencia-Lucena. 180 F. 3d at 325). with one
exception. The requests to USAO-MA were all related to
cases or investigations, including the matter of Mr. Bulger.
USAO-MA's focus on case-related files was therefore
reasonable. Even assuming information related to
Plaintiffs alleged report of a sighting of Mr. Bulger, was
communicated from USAO-CT to USAO-MA (which is
nothing more than an unsupported assumption), it would
likely have been included in files related to the case.
Plaintiff asserts that records of the Joint Fugitive Task
Force should have been searched. [Dkt. 18-1 at 34], While
she provides support for her statement that attorneys from
USAO-MA were on the task force [Dkt. 18-3 at 15, 18],
there is no showing, other than her conclusory statement,
that USAO-MA has control over or access to task force
records. Nor does she suggest why, if such records were
related to the investigation and prosecution of Whitey
Bulger, they would not be found in the extensive search of
case-related files in which USAO-MA engaged. Cf. Wilson,
192 F. Sudd. 3d at 128 & n.3 (crediting plaintiffs
suggestion, based on filings in other cases, that other
records systems should be searched).
However, Plaintiffs request to USAO-CT sought
information regarding reports she reportedly made to

98a

AUSA Sullivan that were not strictly case-related. For
example, neither USAO-CT nor AUSA Sullivan was
involved in the investigation or prosecution of Mr. Bulger.
[Dkt. 16-2, If 15]. It is unclear why USAO-CT imagined that
CaseView, which is the primary system it searched, would
be more likely to include relevant material (assuming it
exists) than, for example, AUSA Sullivan's email.10
Although Plaintiff is silent as to how she communicated
with AUSA Sullivan, USAO-CT recognized that
information such as Plaintiffs alleged report might be
transferred or discussed via email and so searched the
Citizen's Complaint email. [Dkt. 16-2, f 14]. In light of this
recognition, AUSA Sullivan's email seems a reasonable
place to search for responsive documents. The undersigned
therefore recommends that USAO-CT be instructed to
supplement its declaration to fill this gap in its
demonstration of the adequacy of its search, either by
searching AUSA Sullivan's email or by explaining why
such a search is unnecessary. See, e.g., Ancient Coin
Collectors. 641 F.3d at 515 (remanding case and requiring
defendant to provide "further clarification . . . about the
seeming gaps" in its search); see also Freedom Watch, 220
F. Sudd. 3d at 70 (court may request supplementation of
agency declarations); Toensms. 890 F. Sudd. 2d. at 149
(denying without prejudice defendant's motion for
summary judgment to allow agency to submit further
evidence regarding search); People for the Ethical
Treatment of Animals, 800 F. Sudd. 2d at 178 n.2 ("[C]ourts
10 To be sure, this also absolves USAO-CT of searching archived
documents. As the CaseView search revealed that there were
no case-related documents responsive to Plaintiffs requests, it
is not clear how USAO-CT would identify what archived files
to search.

99a

often deny an agency's motion for summary judgment
based upon vague or conclusory declarations and ask the
agency to submit more detailed declarations. In other
cases, courts ask the agency to conduct a more adequate
search." (internal citations omitted)).
c. Other Objections
Finally, Plaintiff founds a number of criticisms in the
specific language used in the agency declarations,
suggesting that they are worded in such a way as to hide
the fact that Defendant did not search for the proper
information and that it is withholding, sub silentio,
relevant documents. First, she notes that Ms. Biega's
declaration does not mention tracking number FOIA-201502310 and Ms. Husted's declaration does not mention any
tracking numbers. [Dkt. 18-1 at 26], This, purportedly
creates a genuine issue of material fact as to whether
Defendant searched for the proper material. Id. But there
is no requirement that a declaration made in support of an
agency's motion for summary judgment in a FOIA
case include the tracking number assigned to the request.
And here, each declaration attaches the actual requests
Plaintiff sent. [Dkt. 16-2 at 6; Dkt. 16-3 at 9, 11]. There is
no basis for Plaintiffs speculation that USAO-CT and
USAO-MA did not address her requests.
Another of Plaintiffs remaining arguments is more
complex. She observes that Defendant's declarations state
that "the locations searched were 'systems of records.'"
[Dkt. 18-1 at 15; Dkt. 16-2, U 16; Dkt. 16-3, If 32], The
phrase "system of records" is used in the Privacy Act, which
defines it as "a group of any records under the control of
any agency from which information is retrieved by the

100a

name of the individual or by some identifying number,
symbol, or other identifying particular assigned to the
individual." 5 U.S.C. § 5S2a(a)(5). Plaintiff argues that the
limitation to "systems of records" is unsound because,
pursuant to FOIA, searches are "in no way limited to
records contained within a system of records." [Dkt. 18-1 at
15 (quoting Clarkson u. I.R.S.. 678 F.2d 1368. 1376 (11th
Cir. 1982)1. Therefore, according to Plaintiff, there is a
genuine issue of material fact as to whether "the searches
were thorough." Id. at 16. However, the declarations
repeatedly indicate Defendant responded to the requests
pursuant to FOIA. [Dkt. 16-2, ffl, 3, 7, 11-12, 14
(referencing FOIA); Dkt. 16-3, Iff 5, 8-9, 11-12 (same)].
More importantly, neither USAO-CT nor USAO-MA
actually limited its search only to "systems of records" as
defined by the Privacy Act. Rather, USAO-CT searched
paper files and also questioned AUSA Sullivan; USAO-MA
combed through boxes of hard files as well as questioning
members of the prosecution team. Finally, the limitation to
searches for Plaintiffs name, as explained above, was not
imposed because Defendant performed searches only
pursuant to the Privacy Act, but rather followed logically
from the particular requests Plaintiff submitted.
Plaintiffs two residual arguments concern a provision that
exempts from the requirements of FOIA certain law
enforcement records. Section 552(c)(1) states that, when a
request is made for law enforcement records that "could
reasonably be expected to interfere with enforcement
proceedings" involving a possible violation of criminal law,
and "there is reason to believe that [f the subject of the
investigation or proceeding is unaware of its pendency," the
agency may "treat the records as not subject to the

101a

requirements of [FOIA]" while the investigation or
proceedings is ongoing. 5 U.S.C. ft 552(b)(7)(A). (c)(1). The
subsection codifies one category of records for which the
agency may use a so-called Glomar response, neither
confirming nor denying the existence of responsive
documents. See Mobley v. CIA, 924 F. Sum). 2d 24. 34 &
n.10 (D.D.C. 2013). Plaintiff suggests that the wording of
Defendant's declarations—specifically, statements that
"no responsive records" were found—suggest that it is
withholding records pursuant to one of those provisions.11
[Dkt. 18-1 at 17, 37-38 (emphasis added)].
To the extent that Plaintiffs argument is based on
admissions Defendant purportedly made by failing to
timely respond to her Requests for Admissions [Dkt. 18-1
at 36], it fails for the reasons discussed above. The
argument is otherwise based on pure speculation. Such
"speculative claims about the existence . . . of . . .

11 Generally, Plaintiff refers broadly to Section 552(c). although
atone point she specifies Section 552(c)(2). [Dkt. 18-1 at 17, BB­
SS]. However, Section 552(c)(2) provides that, when informant
records are maintained using the informant's name or personal
identifier, and they are requested by a third party, "the agency
may treat the records as not subject to the requirements of
[FOIA] unless the informant's status as an informant has been
officially confirmed." 5 U.S.C. ft 552(c)(2). Here, no third party
requested information on an informant by that informant's
name. Rather, Plaintiff sought information about herself.
Thus, Plaintiffs implication that 5 U.S.C. ft 552(c)(2) is
relevant is incorrect. Similarly, the third subsection of Section
552(c) cannot be at issue here, as it deals with records held by
the F.B.I. pertaining to foreign intelligence
and
counterintelligence or terrorism. There is no reason to
speculate that Defendant is withholding records pursuant to
that subsection.

102a

documents" are not a sufficient reason to deny summary
judgment. Competitive Enter. Inst. 161 F. Sudd. 3d at 136:
In any case, "even if any of the defendants in this action
were relying upon ft 552(c) to withhold any records, the
Court would not be permitted to comment on the public
record about the existence of such reliance." Mobley. 924 F.
Sudd. 2d at 34 n.lO.
C. Plaintiffs Cross-Motion for Summary Judgment
Plaintiff moves for summary judgment on two of the
affirmative defenses Defendant included in its Answer:
that this Court "lacks subject matter jurisdiction over the
Complaint because Defendant has not improperly withheld
information within the meaning of the FOIA"12 and that
12 This jurisdictional defense appears to derive from the
Supreme Court's statement in Kissinger v. Reporters Comm,
for Freedom of the Press that FOIA
authorizes federal courts to ensure private
access to requested materials when three
requirements have been met. Under 5 U.S.C. ft
552(a)(4)(B) federal jurisdiction is dependent
upon a showing that an agency has (1)
"improperly"; (2) "withheld"; (3) "agency
records." Judicial authority to devise remedies
and enjoin agencies can only be invoked, under
the jurisdictional grant conferred by ft 552. if
the agency has contravened all three
components of this obligation.
445 U.S. 136. 150. 100 S. Ct. 960. 63 L. Ed. 2d 257(1.980). That
case concerned a court's authority to order production of
documents that had not been withheld in contravention of
FOIA. Id. at 139. It held that a court lacks "[jjudicial authority
to devise [a] remedy" where the statute has not been violated.
However, it did not address "subject matter jurisdiction" as

103a

the "FOIA requests that are the subject of this lawsuit
implicate certain information that is protected from
disclosure by one or more statutory exemptions." [Dkt. 181 at 39-41]. Both concern the withholding of information
under FOIA. However, in light of the recommendation to
allow USAO-CT to shore up support for its position that its
searches were adequate, it would be premature to address
Plaintiffs motion at this time. The undersigned therefore
recommends denying Plaintiffs motion without prejudice
to renewal once Defendant has submitted its updated
affidavit.
CONCLUSION
For
the
foregoing
reasons,
the
undersigned
RECOMMENDS that Defendant's Motion for Summary
Judgment [Dkt. 16] be GRANTED IN PART as to USAOMA and DENIED IN PART WITHOUT PREJUDICE as
to USAO-CT. The undersigned further RECOMMENDS
that Plaintiffs Cross Motion for Summary Judgment [Dkt.

generally construed; that is, it did not address the power of a
federal court to hear a dispute, see Arbaueh v. Y&H Corp., 546
U.S. 500. 514. 126 S. Ct. 1235. 163 L. Ed. 2d 1097 (2006)
(noting that subject matter jurisdiction "involves a court's
power to hear a case" (quoting United Stales v. Cotton, 535 U.S.
625. 630. 122 S. Ct, 1781. 152 L. Ed. 2d 860 (2002)). Rather, it
is undisputed that a federal court has subject matter
jurisdiction to review the adequacy of an agency's search for
records, even in the absence of a showing that records were
improperly withheld. See, e.g., Valencia-Lucena, 180 F.iki at
326 ("A requester dissatisfied with the agency's response that
no records have been found may challenge the adequacy of the
agency's search by filing a lawsuit in the district court after
exhausting any administrative remedies." (citing See 5lLS_,C,_
$ 552(a)(6)(A)(i) & (L'D).

104a

18] be DENIED WITHOUT PRE J-UDICE and Plaintiffs
Motion for Reconsideration [Dkt. 26] be DENIED.
* ***

The parties are hereby advised that under the provisions
of Local Rule 72.3(b) of the UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF COLUMBIA, any party
who objects to the Report and Recommendation must file a
written objection thereto with the Clerk of this Court
within 14 days of the party's receipt of this Report and
Recommendation. The written objections must specifically
identify the portion of the report and/or recommendation to
which objection is made, and the basis for such objections.
The parties are further advised that failure to file timely
objections to the findings and recommendations set forth in
this report may waive their right of appeal from an order
of the District Court that adopts such findings and
recommendation. See Thomas v. Am. 474 U.S. 140. 106 S.
Ct. 466. 88 L. Ed. 2d 435 (1985).
Date: January 19, 2018
/s/ G. Michael Harvey
G. MICHAEL HARVEY
UNITED STATES MAGISTRATE JUDGE

105a

APPENDIX G
THE UNITED STATES COURT OF APPEALS FOR
THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-5060
Sara Discepolo,
Appellant,
v.
United States Department of Justice,
Appellee.
On Petition for Panel Rehearing
February 13, 2020

BEFORE: Millett, Pillard, and Wilkins, Circuit Judges.
ORDER
Upon consideration of the petition for rehearing, it is
ORDERED that the petition be denied.
Per Curiam

106a

APPENDIX H
THE UNITED STATES COURT OF APPEALS FOR
THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-5060

.

Sara Discepolo,
Appellant,
v.
United States Department of Justice,
Appellee.
On Petition for Rehearing En Banc
February 13, 2020
BEFORE: Srinivasan, Chief Judge, and Henderson,
Rogers, Tatel, Garland, Griffith, Millett, Pillard, and
Wilkins, Katsas, and Rao, Circuit Judges.
ORDER
Upon consideration of the petition for rehearing en banc,
and the absence of a request by any member of the court
for a vote, it is
ORDERED that the petition be denied.
Per Curiam

107a

APPENDIX I
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS

THE UNITED STATES CONSTITUTION:
U.S. Const., Art. Ill, Sec. 1:
The judicial Power of the United States, shall be vested in
one supreme Court, and in such inferior Courts as the
Congress may from time to time ordain and establish. The
Judges, both of the supreme and inferior Courts, shall hold
their Offices during good Behaviour, and shall, at stated
Times, receive for their Services, a Compensation, which
shall not be diminished during their Continuance in Office.

U.S. Const., Art. Ill, Sec. 2:
The judicial Power shall extend to all Cases, in Law and
Equity, arising under this Constitution, the Laws of the
United States, and Treaties made, or which shall be made,
under their Authority;—to
all
Cases
affecting
Ambassadors, other public Ministers and Consuls;—to all
Cases of admiralty and maritime Jurisdiction;—to
Controversies to which the United States shall be a
Party;—to Controversies between two or more States;—
between a State and Citizens of another State;—between
Citizens of different States,—between Citizens of the same
State claiming Lands under Grants of different States, and

108a

between a State, or the Citizens thereof, and foreign States,
Citizens or Subjects.
In all Cases affecting Ambassadors, other public Ministers
and Consuls, and those in which a State shall be Party, the
supreme Court shall have original Jurisdiction. In all the
other Cases before mentioned, the supreme Court shall
have appellate Jurisdiction, both as to Law and Fact, with
such Exceptions, and under such Regulations as the
Congress shall make.
The Trial of all Crimes, except in Cases of Impeachment,
shall be by Jury; and such Trial shall be held in the State
where the said Crimes shall have been committed; but
when not committed within any State, the Trial shall be at
such Place or Places as the Congress may by Law have
directed.
THE FREEDOM OF INFORMATION ACT:
5 U.S.C. § 552(a)(4)(B):
On complaint, the district court of the United States in the
district in which the complainant resides, or has his
principal place of business, or in which the agency records
are situated, or in the District of Columbia, has jurisdiction
to enjoin the agency from withholding agency records and
to order the production of any agency records improperly
withheld from the complainant. In such a case the court
shall determine the matter de novo, and may examine the
contents of such agency records in camera to determine
whether such records or any part thereof shall be withheld
under any of the exemptions set forth in subsection (b) of

109a

this section, and the burden is on the agency to sustain its
action. In addition to any other matters to which a court
accords substantial weight, a court shall accord substantial
weight to an affidavit of an agency concerning the agency’s
determination as to technical feasibility under paragraph
(2)(C) and subsection (b) and reproducibility under
paragraph (3)(B).

5 U.S.C. § 552(c):
(1) Whenever a request is made which involves access to
records described in subsection (b)(7)(A) and—
(A) the investigation or proceeding involves a possible
violation of criminal law; and
(B) there is reason to believe that (i) the subject of the
investigation or proceeding is not aware of its pendency,
and (ii) disclosure of the existence of the records could
reasonably be expected to interfere with enforcement
proceedings,
the agency may, during only such time as that
circumstance continues, treat the records as not subject to
the requirements of this section.
(2) Whenever informant records maintained by a criminal
law enforcement agency under an informant’s name or
personal identifier are requested by a third party according
to the informant’s name or personal identifier, the agency
may treat the records as not subject to the requirements of
this section unless the informant’s status as an, informant
has been officially confirmed.
(3) Whenever a request is made which involves access to
records maintained by the Federal Bureau of Investigation
pertaining to foreign intelligence or counterintelligence, or

110a

international terrorism, and the existence of the records is
classified information as provided in subsection (b)(1), the
Bureau may, as long as the existence of the records
remains classified information, treat the records as not
subject to the requirements of this section.
THE PRIVACY ACT:
5 U.S.C. § 552a(a):
Records Maintained on Individuals
(a) Definitions. For purposes of this section—

(4) the term “record” means any item, collection, or
grouping of information about an individual that is
maintained by an agency, including, but not limited to, his
education, financial transactions, medical history, and
criminal or employment history and that' contains his
name, or the identifying number, symbol, or other
identifying particular assigned to the individual, such as a
finger or voice print or a photograph;
(5) the term “system of records” means a group of any
records under the control of any agency from which
information is retrieved by the name of the individual or by
some identifying number, symbol, or other identifying
particular assigned to the individual;

111a

5 U.S.C. § 552a(b)(2):
Conditions of disclosure. No agency shall disclose any
record which is contained in a system of records by any
means of communication to any person, or to another
agency, except pursuant to a written request by, or with
the prior written consent of, the individual to whom the
record pertains, unless disclosure of the record would be—

(2) required under section 552 of this title [5 USCS § 552];

5 U.S.C. § 552a(d)(l):
Access to records. Each agency that maintains a system of
records shall—
(1) upon request by any individual to gain access to his
record or to any information pertaining to him which is
contained in the system, permit him and upon his request,
a person of his own choosing to accompany him, to review
the record and have a copy made of all or any portion
thereof in a form comprehensible to him, except that the
agency may require the individual to furnish a written
statement authorizing discussion of that individual’s
record in the accompanying person’s presence;

112a

\

5 U.S.C. § 552a(t)(2):
No agency shall rely on any exemption in this section to
withhold from an individual any record which is otherwise
accessible to such individual under the provisions of section
552 of this title [5 USCS § 552].

THE LEGISLATIVE HISTORY:
S.Rep.No.93-1200, 93d Cong., 2d Sess. 11-12 (1974)
(Conference Report):

NATIONAL DEFENSE AND FOREIGN POLICY
EXEMPTION (B) (1)
The House bill amended subsection (b) (1) of the
Freedom of Information law to permit the withholding of
information “authorized under the criteria established by
an Executive order to be kept secret in the interest of the
national defense or foreign policy.”
The Senate amendment contained similar language
but added “statute” to the exemption provision.
The conference substitute combines language of both
House and Senate bills to permit the withholding of
information where it is “specifically authorized under
criteria established by an Executive order to be kept secret
in the interest of national defense or foreign policy” and is

113a

“in fact, properly classified” pursuant to both procedural
and substantive criteria contained in such Executive order.
When linked with the authority conferred upon the
Federal courts in this conference substitute for in camera
examination of contested records as part of their de novo
determination in Freedom of Information cases, this
clarifies Congressional intent to override the Supreme
Court’s holding in the case of E.P.A. v Mink, et al., supra,
with respect to in camera review of classified documents.
However, the conferees recognize that the Executive
departments responsible for national defense and foreign
policy matters have unique insights into what adverse
affects might occur as a result of public disclosure of a
particular classified record. Accordingly, the conferees
de novo
expect that Federal courts, in making
determinations in Section 552(b)(1) cases under the
Freedom of Information law, will accord substantial weight
to an agency’s affidavit concerning the details of the
classified status of the disputed record.
Restricted Data (42 U.S.C. 2162), communications
information (18 U.S.C. 798), and intelligence sources and
methods (50 U.S.C. 403(d)(3) and (g)), for example, may be
classified and exempted under section 552(b)(3) of the
Freedom of Information Act. When suh information is
subjected to court review, the court should recognize that
if such information is classified pursuant to one of the
above statutes, it shall be exempted under this law.

114a

120 Cong.Rec. 36, 869-70 (1974) (remarks of Sen. Muskie):
*

★

*

Among many signals transmitted by the voting public on
November 5 was that government has become too big, too
unresponsive, and too closed to the people it is supposed
to serve.
*

*

*

And as demonstrated in the case of Environmental
Protection Agency against PATSY MINK, there was no
mechanism for challenging the propriety of classifications
under the national defense and foreign policy exemptions
of the 1966 act. Thus, the mere rubberstamping of a
document as “secret” could forever immunize it from
disclosure.
The legislation before us today is designed to close
up the loopholes which have led to such abuse of both the
spirit and the letter of the law. .. .
*

*

*

And most importantly, the legislation will establish a
mechanism for checking abuses by providing for review of
classification by an impartial outside party.
*

*

*

The legislation passed by Congress would call for a
determination by the judge reviewing the documents in
question that the documents were properly classified, in

!

115a

accordance with rules and guideline for classification set
out by the executive branch itself.
The judge would be required to give substantial
weight to the classifying agency’s opinion in determining
the propriety of the classification.

The bill passed by Congress recognizes that special
weight should be given agency judgments where highly
sensitive material is concerned.

As a practical matter, I cannot imagine that any
Federal judge would throw open the gates of the Nation’s
classified secretes, or that they would substitute their
judgment for that of an agency head without carefully
weighing all the evidence in the arguments presented by
both sides.
On the contrary, if we constrict the manner in which
courts perform this vital review function, we make the
classifiers themselves privileged officials, immune from the
accountability necessary for Government to function
smoothly.

116a

THE MAGISTRATE ACT:
28 U.S.C. § 636 Jui'isdiction, powers and temporary
assignment
(b)
(1) Notwithstanding any provision of law to the contrary—
(A) a judge may designate a magistrate [magistrate judge]
to hear and determine any pretrial matter pending before
the court, except a motion for injunctive relief, for
judgment on the pleadings, for summary judgment, to
dismiss or quash an indictment or information made by the
defendant, to suppress evidence in a criminal case, to
dismiss or to permit maintenance of a class action, to
dismiss for failure to state a claim upon which relief can be
granted, and to involuntarily dismiss an action. A judge of
the court may reconsider any pretrial matter under this
subparagraph (A) where it has been shown that the
magistrate’s [magistrate judge’s] order is clearly erroneous
or contrary to law.
(B) a judge may also designate a magistrate [magistrate
judge] to conduct hearings, including evidentiary hearings,
and to submit to a judge of the court proposed findings of
fact and recommendations for the disposition, by a judge of
the court, of any motion excepted in subparagraph (A), of
applications for posttrial [post-trial] relief made by
individuals convicted of criminal offenses and of prisoner
petitions challenging conditions of confinement.
(C) the magistrate [magistrate judge] shall file his
proposed findings
and recommendations
under
subparagraph (B) with the court and a copy shall forthwith
be mailed to all parties.

117a

Within fourteen days after being served with a copy, any
party may serve and file written objections to such
proposed findings and recommendations as provided by
rules of court. A judge of the court shall make a de novo
determination of those portions of the report or specified
proposed findings or recommendations to which objection
is made. A judge of the court may accept, reject, or modify,
in whole or in part, the findings or recommendations made
by the magistrate [magistrate judge]. The judge may also
receive further evidence or recommit the matter to the
magistrate [magistrate judge] with instructions.

(c) Notwithstanding any provision of law to the contrary—
(1) Upon the consent of the parties, a full-time United
States magistrate [magistrate judge] or a part-time United
States magistrate [magistrate judge] who serves as a full­
time judicial officer may conduct any or all proceedings in
a jury or nonjury civil matter and order the entry of
judgment in the case, when specially designated to exercise
such jurisdiction by the district court or courts he serves.
Upon the consent of the parties, pursuant to their specific
written request, any other part-time magistrate
[magistrate judge] may exercise such jurisdiction, if such
magistrate [magistrate judge] meets the bar membership
requirements set forth in section 631(b)(1) [28 USCS §
631(b)(1)] and the chief judge of the district court certifies
that a full-time magistrate [magistrate judge] is not
reasonably available in accordance with guidelines
established by the judicial council of the circuit. When
there is more than one judge of a district court, designation
under this paragraph shall be by the concurrence of a

118a

majority of all the judges of such district court, and when
there is no such concurrence, then by the chief judge.

REGULATIONS:
28 C.F.R. § 16.4(a):
Responsibility for Responding to Requests
In general. Except in the instances described in paragraphs
(c) and (d) of this section, the component that first receives
a request for a record and maintains that record is the
component responsible for responding to the request. In
determining which records are responsive to a request, a
component ordinarily will include only recoi’ds in its
possession as of the date that it begins its search. If any
other date is used, the component shall inform the
requester of that date. A record that is excluded from the
requirements of the FOIA pursuant to 5 U.S.C. 552(c), is
not considered responsive to a request.

